      Department of Homeland Security




             Management Letter for the FY 2012 DHS 

            Financial Statements and Internal Control 

                 over Financial Reporting Audit





OIG-13-38                                        February 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      FEB 14 2013

MEMORANDUM FOR:              Larry Bedker
                             Director
                             Office of Financial Management

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Management Letter for the FY 2012 DHS Financial
                             Statements and Internal Control over Financial Reporting
                             Audit

Attached for your information is our final report, Management Letter for the FY 2012
DHS Financial Statements and Internal Control over Financial Reporting Audit. This
report contains observations and recommendations related to internal control
deficiencies that were not required to be reported in the Independent Auditors’ Report
over the FY 2012 DHS financial statements and internal control over financial reporting.
Internal control deficiencies, which are considered significant deficiencies were
reported, as required, in the Independent Auditors’ Report, dated November 14, 2012,
which was included in the FY 2012 DHS Annual Financial Report. We do not require
management’s response to the recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated January 30, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact, Mark Bell, Deputy Assistant
Inspector General for Audits, at (202)254-4100.

Attachment
                              KPMG LLP
                              Suite 12000
                              1801 K Street, NW
                              Washington, DC 20006




January 30, 2013

Office of Inspector General and Chief Financial Officer,
U.S. Department of Homeland Security,
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2012 and the related statements of net cost, changes in net
position and custodial activity, and combined statement of budgetary resources for the year then
ended (referred to herein as the “fiscal year (FY) 2012 financial statements”). The objective of
our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
FY 2012 financial statements, based on the criteria established in Office of Management and
Budget, Circular No. A-123, Management’s Responsibility for Internal Control, Appendix A.

Our Independent Auditors’ Report issued on November 14, 2012, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on the DHS’ FY 2012 financial statements and internal control over financial
reporting. In addition, the FY 2012 DHS Secretary’s Assurance Statement states that the
Department was able to provide qualified assurance that internal control over financial reporting
was operating effectively at September 30, 2012.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred
to in the paragraph above, included internal control deficiencies identified during our audit, that
individually, or in aggregate, represented a material weakness or a significant deficiency.

We also noted certain matters involving internal control and other operational matters that are less
severe than a material weakness or a significant deficiency, and consequently are reported
separately to the Office of Inspector General (OIG) and DHS management in this letter. These
comments and recommendations, all of which have been discussed with the appropriate members
of management, are intended to improve internal control or result in other operating efficiencies.
Sections I through XV of this letter provide our observations for your consideration, and have
been indexed in the table of Financial Management Comments beginning on the following page.
The disposition of each internal control deficiency indentified during our FY 2012 audit – as
either reported in our Independent Auditors’ Report, or herein – is presented in Appendix A. The
status of internal control deficiencies identified during our FY 2011 audit is presented in
Appendix B. Our findings related to information technology systems security have been
presented in a separate letter to the OIG and the DHS Chief Information Officer.

DHS’ written response to our comments and recommendations is presented in Appendix C.




                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of the DHS’ management, the DHS Office of
Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone
other than these specified parties.



Very truly yours,
                                 Department of Homeland Security
                             Table of Financial Management Comments
                                        September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Section/Component
           Comment
           Reference   Subject                                                              Page

I     CUSTOMS AND BORDER PROTECTION (CBP)                                                     6
         FMC 12-01 Lack of Implementation of Controls over Determining Classification of
                   Leases
         FMC 12-02 Automated Commercial System (ACS) Deficiency over the Accumulation
                   of Accelerated Payments Against a Drawback Bond
         FMC 12-03 Insufficient Retention Period for Documents that Support Drawback
                   Claims
         FMC 12-04 Weaknesses in Controls over Timely Processing of Goods and Services
                   Received
         FMC 12-05 Insufficient Review of ACS and User Fee Database Reconciliation
         FMC 12-06 Deficiencies in the Public and Confidential Financial Disclosure
                   Reporting Process
         FMC 12-07 Deficiencies in the Performance Management Program
         FMC 12-08 Insufficient Review of the Consolidated Omnibus Budget Reconciliation
                   Act User Fees and Immigration User Fees Accounts Receivable Estimate
         FMC 12-09 Lack of Segregation of Duties over Collections and Deposits
         FMC 12-10 Weaknesses in the Trade Compliance Measurement Program
         FMC 12-11 Weaknesses in the Review of the Weekly Entry Edit/Exception Reports
         FMC 12-12 Deficiencies over Monitoring of Ethics Requirements
         FMC 12-13 Untimely Undelivered Orders (UDOs) Quarterly Review
         FMC 12-14 Weaknesses in Controls over Customs-Trade Partnership Against
                   Terrorism Benefits
         FMC 12-15 Lack of Verification of Refunds
         FMC 12-16 Weaknesses in Controls over the Bond Sufficiency Review Process
         FMC 12-17 Deficiencies in the Seized Inventory Process
         FMC 12-18 Deficiencies in the Review of the Department of Labor (DOL)
                   Chargeback Report
         FMC 12-19 Weaknesses in CBP’s Process Related to Recording Construction
                   Percentage of Completion Amounts
         FMC 12-20 Untimely De-obligation of UDOs and Weaknesses in Related Controls
         FMC 12-21 Deficiencies in the Review of Standard Form (SF)-52 Personnel Action
                   Request Tracking System Actions
         FMC 12-22 Deficiencies in the Review of Adjusting Journal Entries (JEs)
         FMC 12-23 Deficiencies in the Inventory and Related Property Process
         FMC 12-24 Deficiencies in Tracking CBP Leases

II    DOMESTIC NUCLEAR DETECTION OFFICE (DNDO)                                                19
        FMC 12-01 Deficiencies in the Operating Expense Process
        FMC 12-02 Deficiencies Related to Monitoring UDOs

III   FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA)                                              21
         FMC 12-01 Inability to Link Systems to Significant Grant Programs
         FMC 12-02 Ineffective Design of Controls Related to Grant Activities
         FMC 12-03 Ineffective Design of Controls Related to Intragovernmental Activities
         FMC 12-04 Internal Control Deficiencies Identified over Claims Paid at Selected
                   Insurance Companies that Participate in FEMA’s National Flood
                   Insurance Program (NFIP)
         FMC 12-05 Deficiencies Identified over Premiums Written by FEMA’s NFIP
         FMC 12-06 Ineffective Controls over Procurement Payments and Monitoring Efforts


                                                  1

                                Department of Homeland Security
                            Table of Financial Management Comments
                                       September 30, 2012

         FMC 12-07    Ineffective Controls over Procurement and Non-Compliance with Federal
                      Acquisition Regulation
         FMC 12-08    Deficiencies in the Monthly Budget Execution Reviews
         FMC 12-09    Deficiencies Identified in the Integrated Financial Management
                      Information System Chart of Accounts and Transaction Codes
         FMC 12-10    Deficiencies in the Preparation and Review of the Government
                      Accountability Office (GAO) Financial Audit Manual 2010 – Checklist
                      for Federal Accounting
         FMC 12-11    Deficiencies in the Development of Mission Assignment Policies and
                      Procedures
         FMC 12-12    Inadequate Documentation Related to Payroll Processing and Lack of
                      Formal Policies and Procedures
         FMC 12-13    Ineffective Monitoring of Internal Controls via the Internal Control Board
         FMC 12-14    Lack of Documentation Related to the Contingent Legal Liabilities
                      Review
         FMC 12-15    Deficiencies Identified over Claims’ Loss Reserves at Selected Insurance
                      Companies that Participate in FEMA’s NFIP
         FMC 12-16    Issues Identified in Journal Voucher Testwork
         FMC 12-17    Non-Compliance with the Prompt Payment Act
         FMC 12-18    Lack of Communication to Employees Regarding the Department of
                      Homeland Security Office of Inspector General Hotline and the Code of
                      Conduct
         FMC 12-19    General Office of Chief Procurement Officer Lack of Responsiveness and
                      Process Knowledge
         FMC 12-20    Inability to Closeout Assistance to Firefighter Grants
         FMC 12-21    Deficiencies in the Monitoring of Staffing Requirements
         FMC 12-22    Improvements Needed in Management’s Review of the Legacy
                      Preparedness Accrual Model
         FMC 12-23    Untimely Reduction of Invalid Unfilled Customer Orders (UCOs)
         FMC 12-24    Improvements Needed in Management’s Review of the Acceptable
                      Variance Range for the SmartLink Accrual Model
         FMC 12-25    Deficiencies in the Methodology and Controls Related to the Non-Grant,
                      Non-Intragovernmental Accounts Payable Accrual
         FMC 12-26    Deficiency Identified Related to the Preparation and Review of the
                      Retrospective Review Analysis
         FMC 12-27    Deficiencies in the Verification and Collection of Required
                      Supplementary Stewardship Information and Performance Measurement
                      Data for the Annual Financial Report’s Management’s Discussion and
                      Analysis

IV   FEDERAL LAW ENFORCEMENT TRAINING CENTER (FLETC)                                               37
        FMC 12-01 Deficiencies in the Financial Disclosure Reporting Process
        FMC 12-02 Deficiencies in the Review of SF-50s


V    UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES (USCIS)                                    38
        FMC 12-01 Inadequate Policies and Procedures over the Review of Personnel Actions
        FMC 12-02 Insufficient Reconciliation between the Purchase Request Information
                  System (PRISM) and Federal Financial Management System (FFMS)
        FMC 12-03 Potential Non-Compliance with Office of Government Ethics (OGE)
                  Form 450 Filing Requirements
        FMC 12-04 USCIS Contracting Officers Disregarded DHS Invoice Approval
                  Requirements
        FMC 12-05 Insufficient Review of Journal Entries
        FMC 12-06 Inaccurate Data in the Claims 3, Claims 4, and Marriage Fraud



                                                    2

                                   Department of Homeland Security
                               Table of Financial Management Comments
                                          September 30, 2012

                        Amendment Systems
           FMC 12-07    Insufficient Review of Deposit Transactions
           FMC 12-08    Inadequate Monitoring of Fee Table Changes in Deferred Revenue
                        Estimate Process
           FMC 12-09    Deficiencies in the Recording of Internal Use Software
           FMC 12-10    Deficiencies in the Timely Recording of Capital Equipment

VI     IMMIGRATION AND CUSTOMS ENFORCEMENT (ICE)                                              43
         FMC 12-01 Inadequate Controls over New Hire Ethics Briefings
         FMC 12-02 Student and Exchange Visitor Information System Data not Reconciled to
                   FFMS Data
         FMC 12-03 GAO Checklist Review
         FMC 12-04 Untimely Review of OGE Form 450s
         FMC 12-05 Ineffective Internal Controls over Leave Audit Process
         FMC 12-06 FFMS to PRISM Reconciliation
         FMC 12-07 Subject to Availability of Funding Agreements not Obligated in FFMS at
                   Outset of Agreement
         FMC 12-08 Accounts Payable Estimation Methodology does not Contain Procedures
                   for Considering Improvements to the Methodology
         FMC 12-09 Inadequate Policies and Procedures for Property, Plant and Equipment
                   (PP&E) Accruals

VII    INTELLIGENCE & ANALYSIS (I&A) and OPERATIONS (OPS) (MGA)                               47
           FMC 12-01    UDO Validity
           FMC 12-02    Deficiencies in the Payroll Process

VIII   MANAGEMENT DIRECTORATE (MGT)                                                           49
           FMC 12-01    Inadequate Internal Controls over PP&E

IX     NATIONAL PROTECTION AND PROGRAMS DIRECTORATE (NPPD)                                    50
          FMC 12-01 Inadequate PRISM to FFMS Reconciliation
          FMC 12-02 Federal Protective Services (FPS) Accounts Receivable Allowance
          FMC 12-03 UCOs Not Recorded for Recurring Security Agreements
          FMC 12-04 FPS Headquarters Security Billing Review
          FMC 12-05 Untimely De-obligation of UDO Balances
          FMC 12-06 Accounts Payable Estimate Methodology

X      OFFICE OF HEALTH AFFAIRS (OHA)                                                         53
          FMC 12-01 Bioshield Accounts Payable Accrual
          FMC 12-02 Contract Management

XI     SCIENCE & TECHNOLOGY DIRECTORATE (S&T)                                                 54
          FMC 12-01 FFMS to PRISM Reconciliation
          FMC 12-02 Inadequate Controls and Procedures over Recording and Reporting
                    Personal Property
          FMC 12-03 Inadequate Internal Controls over Reporting of Construction In Progress
                    (CIP) and Buildings
          FMC 12-04 Inadequate Documentation of Inventory Procedures
          FMC 12-05 Inadequate UCO Review
          FMC 12-06 Inadequate Policies and Procedures for Identifying Heritage Assets

XII    TRANSPORTATION SECURITY ADMINISTRATION (TSA)                                           57
          FMC 12-01 Asset Exchanges
          FMC 12-02 Noncompliance with Debt Collection Improvement Act (DCIA) of 1996


                                                      3

                                  Department of Homeland Security
                              Table of Financial Management Comments
                                         September 30, 2012

           FMC 12-03    Revenue Fee Classification
           FMC 12-04    Review of Journal Vouchers
           FMC 12-05    Employee Record Management and Compliance with Human Resources
                        Related Laws
           FMC 12-06    Ineffective Controls over the Time and Attendance Process
           FMC 12-07    PP&E Site Visits
           FMC 12-08    PP&E Controls
           FMC 12-09    Completeness of Heritage Assets
           FMC 12-10    Undelivered Orders Controls – Validation and Verification
           FMC 12-11    Travel Authorization Approval
           FMC 12-12    Intragovernmental Payment And Collection Review Controls and
                        Suspense Clearing

XIII   UNITED STATES COAST GUARD (USCG OR Coast Guard)                                      65
          FMC 12-01 Fund Balance with Treasury (FBwT) Reconciliations
          FMC 12-02 Expense Process
          FMC 12-03 Accounts Receivable and DCIA Compliance
          FMC 12-04 Operating Materials and Supplies
          FMC 12-05 Financial Disclosure Reports

XIV    UNITED STATES SECRET SERVICE (USSS)                                                  69
          FMC 12-01 JE Controls
          FMC 12-02 Funds Management Controls and Supporting Documentation
          FMC 12-03 Deficiencies in USSS’s Seized Property Inventory Process
          FMC 12-04 Human Resource Compliance and Controls

XV     CONSOLIDATED (CONS)                                                                  72
         FMC 12-01 Interim Contingent Legal Liabilities Review
         FMC 12-02 Preparation and Review of the Special-Purpose Financial Statements and
                   Notes




                                                   4

                               Department of Homeland Security
                           Table of Financial Management Comments
                                      September 30, 2012

APPENDIX

Appendix   Subject                                                                      Page

A          Crosswalk – Financial Management Comments to Active Notices of Finding and     74

           Recommendation (NFRs)

B          Status of Prior Year NFRs                                                      82

C          Management Response to the Management Letter                                   88





                                               5

                                                                                                Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


I.     CUSTOMS AND BORDER PROTECTION (CBP)

CBP – Financial Management Comment (FMC) 12-01 – Lack of Implementation of Controls over
Determining Classification of Leases (Notice of Finding and Recommendation (NFR) No. CBP 12­
02)

       CBP does not have a formal requirement to retain documentation for personal property or Office
       of Information Technology (OIT) property to support the evaluation of all leases as operating or
       capital. Therefore, there is no clear, auditable documentation evidencing how CBP determines if
       personal property or an OIT lease should be classified as capital or operating.

       Recommendations:
       We recommend that CBP:
       •	 Prepare a personal property and OIT lease evaluation tool in accordance with Statement of
          Federal Financial Accounting Standards (SFFAS) No. 6 and Office of Management and
          Budget (OMB) Circular No. A-11.
       •	 Update CBP’s lease directive to require the completion and retention of the personal property
          and OIT lease evaluation tool and establish related responsibilities.

CBP – FMC 12-02 – Automated Commercial System (ACS) Deficiency over the Accumulation of
Accelerated Payments Against a Drawback Bond (NFR No. CBP 12-03)

       ACS does not properly account for bond sufficiency of claims that involve a continuous bond.
       Specifically, the automated control that prevents a claimant from exceeding the bond amount on
       file is not operating effectively. As a result, CBP may not have sufficient surety against a
       drawback over claim. Additionally, manual procedures are not in place to ensure the sufficiency
       of bonds.

       ACS remains the system of record for drawback claims and bonds. In fiscal year (FY) 2012,
       CBP began developing a script within ACS, known as “ACP,” that will indicate the bond number,
       claimants listed on the bond, anniversary date of the bond, bond value, and a list of all drawback
       accelerated payments applied against the bond. However, the script has not been fully and
       effectively implemented within ACS.

       Recommendation:
       We recommend that CBP release the revised script, ACP, described above, into production, after
       proper testing, and issue an updated memo to the drawback centers announcing the reinstatement
       of the ACP script, with instructions on how to use the script.

CBP – FMC 12-03 – Insufficient Retention Period for Documents that Support Drawback Claims
(NFR No. CBP 12-04)

       The length for document retention related to a drawback claim, per the Code of Federal
       Regulations (CFR), is three years from the date of payment. However, there are several situations
       that could extend the life of the drawback claim beyond three years. For example, a protest on
       the underlying consumption entries that are associated with a drawback claim may require an
       extension, thus the claimant may not be retaining supporting documentation for the extended
       amount of time. Also, the language of the CFR is ambiguous, “…3 years after payment of such


                                                   6

                                                                                                 Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


       claims…” leaves open to interpretation whether the three years begins on the date of the
       accelerated payment (if any), or the payment at final liquidation (if any). Based on review of
       CBP’s mission action plan, CBP is currently in process of tracking the status of the Drawback
       Simplification legislation which, if passed, will better allow CBP to analyze export
       documentation and assess the validity and accuracy of drawback claims. Although CBP is
       continuing to make progress on correcting this condition, remediation was not completed during
       FY 2012.

       Recommendation:
       As the document retention period is a statutory requirement set by Congress, CBP does not have a
       specific recommendation.

CBP – FMC 12-04 – Weaknesses in Controls over Timely Processing of Goods and Services
Received (NFR Nos. CBP 12-07 and 12-07b)

       During testwork as of March 31, 2012, we reviewed a statistical sample of 55 operating expense
       type transactions. In three transactions, the receipt of goods or services was not recorded in the
       proper period.

       Contracting Officer’s Technical Representatives and goods receivers did not consistently enter
       goods receipt and service entry sheets timely into SAP, CBP’s financial reporting system. As a
       result, at year-end, CBP must estimate accounts payable for goods or services received, but not
       entered into SAP. Although this estimation process is typically accurate, as evidenced by the
       search for unrecorded liabilities performed by CBP at the beginning of each fiscal year, CBP’s
       controls over the process of recording the receiving of goods and services timely throughout the
       year are not consistently applied.

       In order to capture goods receipt/service entries not entered timely, CBP uses both workflow
       messages and an on-demand SAP “parked invoice” report available to all receiving officials. A
       workflow message is sent to the goods receiver when an invoice is input into SAP without a
       corresponding goods receipt. In addition, if this message is not addressed within five days, a
       subsequent message is sent to a budget official. CBP’s Commercial Accounts Section works the
       “parked invoice” report weekly and communicates with program offices to resolve open items.
       In addition, CBP headquarters program level officers are provided the “parked invoice” report
       monthly that allows them to monitor the items outstanding for their program office. These
       officials are responsible for distributing the report to their subordinate offices for action and
       implementing varying levels of review procedures to ensure items are resolved. Beginning
       January 2012, SAP was enhanced to issue email messages to Contracting Officers when an
       invoice remained parked for 8 days and another email message is issued when the invoice is still
       parked at 15 days. In addition, CBP Directive 5220-040, Contract Invoice Processing and
       Payment Procedures, was issued January 26, 2012, to establish controls, guidance, and
       procedures for timely processing of contractors’ invoices and interim vouchers, to prevent interest
       penalties for late payments. However, these procedures are not performed until after the receipt
       of an invoice, which is typically after the receipt of goods or services.

       During testwork as of July 31, 2012, we reviewed a statistical sample of 39 operating expense
       type transactions and identified seven transactions where the receipt of goods or services was not
       recorded in the proper period.


                                                    7

                                                                                                 Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


       During testwork as of September 30, 2012, we reviewed a statistical sample of 27 operating
       expense type transactions and identified nine transactions, where the receipt of goods or services
       was not recorded in the proper period.

       Recommendations:
       We recommend that CBP:
       •	 Continue outreach efforts that provide guidance to receiving officials through conference
          calls and newsletters.
       •	 Monitor the results of the annual Self Inspection worksheets to determine additional training
          needs.
       •	 Provide Webinar type training and target program offices that enter receiving information
          late.

CBP – FMC 12-05 – Insufficient Review of ACS and User Feed Database Reconciliation (NFR No.
CBP 12-09)

       Insufficient review was performed over the December 2011 ACS-User Fee Database
       reconciliation. For the reconciliation of one class code, the amount of collections input on the
       reconciliation was incorrect. As a result, the un-reconciled amount did not mathematically add as
       indicated on the reconciliation. These errors were not identified during the review process;
       however, the errors did not lead to a misstatement of the financial statements.

       Recommendation:
       We recommend that CBP management review monthly ACS-User Fee Database reconciliations
       to ensure that mathematical inaccuracies are identified and corrected.

CBP – FMC 12-06 – Deficiencies in the Public and Confidential Financial Disclosure Reporting
Process (NFR No. CBP 12-10)

       During testwork over a sample of 15 employees who filed Office of Government Ethics (OGE)
       Form 278, Executive Branch Personnel Public Financial Disclosure Reports, in FY 2012, the
       following deficiency was identified:
       •	 Evidence of review and certification by the Reviewing Official within 60 days of the date of
           filing for one OGE Form 278 could not be provided.

      During testwork over a sample of 45 employees who filed OGE Form 450, Executive Branch
      Personnel Confidential Financial Disclosure Reports, in FY 2012, the following deficiencies were
      identified:
      •	 One employee did not complete the OGE Form 450 correctly and the inaccuracies were not
          identified during the review process.
      •	 Seven employees filed the OGE Form 450 untimely, after the required February 15th filing
          date.
      •	 Four OGE Form 450 forms were not signed by the Final Reviewing Official within 60 days of
          the date of filing.




                                                   8

                                                                                               Section I
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2012


      Recommendations:
      We recommend that:
      •	 With regard to the OGE Form 278 condition, ensure final reviewers are notified via email for
         filings of Associate Chief Counsel, to manually pull the filing by clicking on the “Submitted
         to Designated Agency Ethics Official (DAEO) w/out required signatures” button. The Final
         Reviewer may then access and complete his/her review and certification of the employee’s
         OGE Form 278. In addition, the e-mail transmission from the “Supervisor” will remind the
         final reviewer to click on the “End Initial Review” button once he has completed a review of
         a filing, so that the audit trail in the Financial Disclosure Microflow (FDM) will contain the
         date that the initial review occurred.
      •	 With regard to the OGE Form 450 conditions, continue the implementation of the OGE Form
         450 FDM, an automated OGE Form 450 filing process. This electronic OGE Form 450 FDM
         is operational and will be utilized for both new entrant and annual OGE Form 450s.

         In addition, ensure system-generated e-mail notifications will be sent to employees in covered
         positions regarding their requirement to file, and to supervisors and final reviewers when a
         filing is ready for their review.

         Finally, utilize the electronic OGE Form 450 FDM to provide program offices with the ability
         to monitor the status of filings for all filers within their organization throughout the filing
         process.

CBP – FMC 12-07 – Deficiencies in the Performance Management Program (NFR No. CBP 12-11)

      During testwork over a sample of 15 Senior Executive Service (SES) performance plans, the
      following deficiency was identified:
      •	 One employee did not assign weights (i.e., numerical quantification) to each employee-
          specific performance objectives at the beginning of the performance appraisal period. After
          the issue was identified through testwork, weights were assigned to their employee-specific
          performance objectives prior to the end of the year-end performance appraisal.

      During testwork over a sample of 45 Non-SES, Supervisory employee performance and appraisal
      plans, the following deficiencies were identified:
      •	 One employee did not have a midyear review;
      •	 One employee did not have initial and midyear performance meetings within the required
          timeframe; and
      •	 One employee did not have separate initial and midyear performance meetings, but instead
          conducted one meeting outside of the initial and midyear review timeframes.
      During testwork over a sample of 45 Non-SES, Non-Supervisory employee performance and
      appraisal plans, the following deficiencies were identified:
      •	 Evidence was not provided to support that one employee’s initial performance meeting had
          been conducted within the required timeframe;
      •	 One employee’s initial plan was not signed by a supervising rating official within the
          required timeframe; and
      •	 One employee did not have an initial planning meeting or midyear performance review
          within the required timeframes.




                                                  9

                                                                                                  Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


      Recommendations:
      We recommend that CBP:
      •	 Regarding the Non-SES supervisory and employee programs, continue implementation of the
         new performance management workflow (Human Resource Business Engine-Performance
         Management) that will allow the Labor and Employee Relations (LER) Policy Division to
         closely monitor the progress and timeliness of CBP program offices in their completion of
         employee performance plan processes. The Human Resource Business Engine -Performance
         Management workflow will allow LER Policy to prepare reports for program offices to alert
         them on impending action requirements and deadlines. Additionally, CBP messaging to
         program offices concerning the initiation of performance plans, completion of mid-cycle
         performance reviews, and completion of final ratings of record will continue.
      •	 Continue to reinforce the requirement to assign weights for Employee-Specific Performance
         Objectives to all SES executives when the SES performance agreement for the new fiscal year
         is issued.

CBP – FMC 12-08 – Insufficient Review of the Consolidated Omnibus Budget Reconciliation Act
User Fees and Immigration User Fees Accounts Receivable Estimate (NFR No. CBP 12-13)

       An error on the March 2012 listing exported from the User Fee Database, which is used to
       generate the Accounts Receivable estimate, was not identified prior to recording the monthly
       Accounts Receivable accrual. The March 2012 listing of the average prior four quarters of
       collections by carrier was exported to Microsoft Excel and incorrectly stored several amounts as
       “text” instead of as numbers. Therefore, these amounts were not included in the total for the
       March 2012 Accounts Receivable estimate.

      Recommendation:
      CBP corrected the process to resolve the underlying issue with the assistance of an OIT
      programmer on September 11, 2012. The download now treats all data as “numbers” rather than
      “text”; the change was tested on September 13, 2012. In addition, future reviews of this report
      will include specifically checking the individual receivables to ensure this type of error is not
      occurring.

CBP – FMC 12-09 – Lack of Segregation of Duties over Collections and Deposits (NFR No. CBP 12­
16)

      During testwork performed at one of the 11 selected Ports of Entry, CBP was unable to provide
      evidence that an independent verifier confirmed that the deposit ticket subtotals and totals were
      correct by agreeing them to the cash on hand for two of the three daily collection files selected for
      testwork.

      Recommendation:
      We recommend that CBP’s Office of Administration continue to work with the Office of Field
      Operations to ensure consistent execution of national policy set forth in the CBP Collections &
      Deposits Handbook HB 5300-12B.




                                                   10

                                                                                                 Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


CBP – FMC 12-10 – Weaknesses in the Trade Compliance Measurement Program (NFR No. CBP
12-17)

       During testing performed at eleven statistically selected ports of entry, the following condition
       related to the Trade Compliance Measurement (TCM) program was identified:
       •	 One port was unable to provide evidence that the monthly TCM database was reviewed in a
           timely manner and signed by a supervisor for all Validation Activities assigned to the Port.

      Recommendation:
      We recommend that the New Orleans Field Operations (NOFO) continue developing a draft
      remedial action plan to address the compliance finding and use the audit result as a guide for
      TCM process improvement at Area ports and Field Operations. NOFO is developing measures to
      improve documented evidence that the monthly TCM data are timely reviewed and vouched by
      the assigned port manager. Highlights of the action plan include: reissue Trade Compliance
      Measurement Policy Memo; TCM reports are downloaded and assigned a unique work number
      and due date in an automated tracker; this report and tracking number is assigned to Area port
      management; port management vouch their validation reviews and voucher for the timely
      completion of the assigned TCM tasking through email; and NOFO TCM Coordinator validates
      these findings using Automated Commercial Environment (ACE) reports; and NOFO TCM
      findings along with the emails are reported to close-out the automated tracker for time period.

CBP – FMC 12-11 – Weaknesses in the Review of Weekly Entry Edit/Exception Reports (NFR No.
CBP 12-19)

       During testwork performed at 11 statistically selected Ports of Entry, the following instances of
       non-compliance with CBP Directive 5610-006A, Entry Deletion and Entry or Entry
       Summary Cancellation, and CBP Directive 5610-004B, Resolving Certain ACE Exception
       and Error Reports, were noted:

      B06 – Weekly ACS List of Rejected/Cancelled Entries Report
      •	 Five ports were unable to provide evidence that the B06 Report was independently verified by
         personnel other than the individual(s) who cancelled the records and reviewed the reports; and
      •	 Two ports were unable to provide evidence that the B06 Report was reviewed in a timely
         manner. 

      B07 – Weekly ACS List of Unpaid/Rejected Entries 

      •	 One port was unable to provide evidence that the B07 Report was reviewed in a timely
         manner.

      B08 – Weekly Late Report: Entry Releases with No Follow-Up Summaries
      •	 Two ports were unable to provide evidence that the B08 Report was generated and reviewed;
      •	 One port was unable to provide evidence that the B08 Report was reviewed; and
      •	 One port was unable to provide evidence that the B08 Report was reviewed in a timely
         manner.

      B84 – Weekly Budget Clearing Account and Suspense Item Report
      •	 One port was unable to provide evidence that the B84 Report was generated and reviewed.



                                                   11

                                                                                                   Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


      S21- Cargo Selectivity Weekly Selectivity Delete Report
      •	 Three ports were unable to provide evidence that the S21 Report was generated and reviewed;
         and
      •	 Two ports provided S21 Reports that were reviewed by the same individuals who performed
         the deletions; thus, evidencing improper segregation of duties.

      Q07 – Monthly Unreported Quota Report
      •	 One port was not generating and reviewing the Q07 Report for the first five months of the
         fiscal year and thus, was unable to provide evidence that the Q07 Report was generated for the
         month selected for testwork.

      Recommendation:
      We recommend that CBP reinforce the importance of CBP directives 5610-004B (September
      2009) and 5610-006A (June 2011) by issuing a reminder memorandum to ensure that the B06,
      B07, B08, B84, S21, and Q07 are run regularly, as specified in the directives.

CBP – FMC 12-12 – Deficiencies over Monitoring of Ethics Requirements (NFR No. CBP 12-21)

      During testwork performed over a sample of 45 new employees, the following instances of non­
      compliance with ethics training requirements were noted:
      •	 For nine employees, CBP was unable to provide evidence the employee received ethics
         materials timely, within 90 days of the employee's Effective Date of employment; and
      •	 For two employees, CBP was unable to provide evidence that the employee received ethics
         materials.

      Recommendation:
      We recommend that CBP continue to implement the procedures related to tracking the receipt of
      ethics information by new employees, including:
      •	 Adding the “Acknowledgment of Receipt of Conduct Information” form to the checklist of
          “Required Employment Forms to Ensure Accurate Human Resources Data,” which must be
          completed by the first day of employment.
      •	 Completed “Acknowledgment of Receipt of Conduct Information” forms would be stored in
          an employee’s electronic Official Personnel Folder) on the temporary side.

CBP – FMC 12-13 – Untimely Undelivered Orders (UDOs) Quarterly Review (NFR No. CBP 12-22)

       During the walkthrough performed over the first quarterly UDO review process, a deficiency was
       identified. Specifically, three program offices submitted their Quarterly Certification letter to the
       NFC after the 21 day deadline. The untimely submission ranged from 7 days to 18 days.

      Recommendation:
      We recommend that CBP continue to perform outreach to the points of contact in the program
      offices to obtain a status on the progress of the Quarterly Certification effort.




                                                    12

                                                                                                 Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


CBP – FMC 12-14 – Weaknesses in Controls over Customs-Trade Partnership Against Terrorism
Benefits (NFR No. CBP 12-23)

       During testwork performed over a sample of 45 Customs-Trade Partnership Against Terrorism
       (C-TPAT) Partners, the following instances of non-compliance with requirements for applying
       and removing benefits in ACS were identified:
       •	 One C-TPAT Partner had benefits which were not appropriately removed in ACS after being
          suspended from the C-TPAT program; and
       •	 Three C-TPAT Partners were entitled to benefits but did not have any benefits applied in
          ACS.

      During testwork performed over a sample of 45 C-TPAT Partners, the following instance of non­
      compliance with requirements for applying benefits in the Web Portal was identified:
      •	 One C-TPAT Partner had fewer benefits than it was entitled to in the Web Portal.

      Recommendation:
      We recommend that CBP continue to implement procedures to electronically link the processes in
      Web Portal and ACS.

CBP – FMC 12-15 – Lack of Verification of Refunds (NFR No. CBP 12-24)

       During testwork over a sample of 45 refunds performed at the Ports of Entry, we identified one
       instance where Customs Officers and Port personnel did not verify the duties, fees, charges, or
       exactions deposited in excess prior to issuing the refund. Specifically, Port personnel issued the
       refund without confirming the Harmonized Tariff Schedule (HTS) number associated with
       merchandise on the refund request. As a result, the Port processed and issued a refund based on
       an expired HTS number. The refund did not result in an over/under payment by CBP as the
       correct HTS number that should have been associated with the merchandise would have resulted
       in a refund of the same amount.

      Recommendation:
      We recommend that CBP provide targeted communication to the noncompliant port to reinforce
      the importance of the requirements in CBP directive 3710-004B.

CBP – FMC 12-16 – Weaknesses in Controls over the Bond Sufficiency Review Process (NFR No.
CBP 12-26)

      During testwork performed over 120 Single Transaction Bond (STB) sample items, the following
      instance of non-compliance with CBP Directive 3510-004 was noted:
      •	 For three STBs selected for Bond Sufficiency testwork, the total value of the bond was not
          sufficient to cover the total value of the merchandise being imported plus all taxes, duties and
          fees.

       During testwork performed over 120 continuous bond sample items, the following instances of
       non-compliance with CBP Directive 3510-005 were noted:




                                                   13

                                                                                                 Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


      •	 For seven active Continuous Bonds, the bond amounts were insufficient as they were not
         greater than 10 percent of all duties, taxes and fees paid by the importer, or broker acting as
         importer of record, during the previous bond year.
      •	 For two active Continuous Bonds, the Bond Liability Locate screen in ACS accumulated
         estimated duties, taxes and fees in a future bond year due to a programming issue where the
         bond years were input as future years (2020 and 2021).

      In addition, the following weakness existed over the bond sufficiency process during FY 2012:
      •	 The Bond Sufficiency Report by beginning effective date of bond and the Bond Sufficiency
          Report by ending effective date of bond generated by the National Finance Center (NFC) do
          not factor in all duties, taxes, and fees paid by the importer during the previous bond year due
          to system limitations in ACS. As a result, the report is unable to identify bonds that may be
          insufficient if the continuous bond amount is set lower than 10 percent of all duties, taxes and
          fees paid by the importer, or broker acting as importer of record, during the previous bond
          year.

      Recommendations:
      We recommend that CBP:
      •	 Continue to provide direction to the field on the sufficient amount of STB coverage when
         STBs are required in cases where antidumping/countervailing duty (AD/CVD) evasion is
         suspected. When STBs are requested in such instances, ports are directed to request national
         cargo criteria to record the STB request. This will allow monitoring of the AD/CVD STBs.
         CBP should also continue to develop an ebond module in ACE for the electronic submission
         of all STBs. Ebond should allow for electronic reporting on STB sufficiency.
      •	 Revenue Division continues to utilize the modified monthly reports that capture insufficient
         bonds.

CBP – FMC 12-17 – Deficiencies in the Seized Inventory Process (NFR No. CBP 12-27)

       During physical inventory observation procedures conducted at ten seized property vaults, the
       following deficiencies were identified:
       •	 At one vault, the log book evidenced that only one person entered the vault for a period of
           time, for one of the five days selected for testwork.
       •	 At one vault, the amount listed on the CBP Form (CF) 6051, Custody Receipt for Seized
           Property and Evidence, did not agree with the amount listed in the Seized Asset and Case
           Tracking System for one of the five CF-6051s selected for testwork.
       •	 At one vault, one seizure in which the weight in the updated Seized Asset and Case Tracking
           System inventory report did not agree to the amount recorded on the certified inventory count
           sheets for one of the 45 test counts observed.

      Recommendations:
      We recommend that CBP:
      •	 Issue a memorandum and assemble the Directors of Field Operations and Ports to inform them
         of the audit findings and remind them of the proper CBP policies and procedures that guide
         their activities around the custody, management, accountability of seized property and
         updating Seized Asset and Case Tracking System within the required time frames.
      •	 Distribute a reminder to the field reminding them of the vault access requirements.


                                                   14

                                                                                                Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


CBP – FMC 12-18 – Deficiencies in the Review of the Department of Labor (DOL) Chargeback
Report (NFR No. CBP 12-28)

      CBP’s Human Resource Management (HRM) – Office of Workers’ Compensation Programs does
      not perform a review of the DOL Detailed Chargeback Report on a quarterly basis. Rather, a
      review of significant payments is performed approximately every 12 months. However, a review
      has not been performed in FY 2012.

      Additionally, CBP was unable to provide support for two of the 45 CA-1 Forms, Notice of
      Traumatic Injury and Claim for Compensation, selected as part of the June 30, 2012 Federal
      Employees’ Compensation Act claims sample.

      Recommendations:
      We recommend that CBP HRM:
      •	 Continue reviewing the chargeback reports as frequently as possible to identify erroneous
         claims and work with other Department of Homeland Security (DHS) components to request
         transfer of these cases and recover erroneous charges through Intragovernmental Payment
         And Collection (IPAC).
      •	 Continue implementation Occupational Safety and Workers’ Compensation Working Group
         (WCWG), established on July 31, 2012, efforts to study the program’s structure, including
         injury prevention, case management, return-to-work initiatives and review of the quarterly
         chargeback process.
      •	 Continue addressing issues and logistics relative to retrieving claim forms and data entry of
         all active previous claims into eComp, CBP’s web-based electronic submission and case
         management system through the WCWG.

CBP – FMC 12-19 – Weaknesses in CBP’s Process Related to Recording Construction Percentage
of Completion Amounts (NFR No. CBP 12-29)

      The following weakness was identified in the controls over CBP’s financial recording of the
      percentage of completion (POC) in FY 2012:
      •	 Lack of an internal review process in the first quarter to determine if all POC amounts were
          reported correctly. Five projects were inadvertently omitted from the POC accrual, due to a
          miscommunication between Facilities, Management, and Engineering (FM&E) and the
          Capital Assets Section. Subsequently, the projects were reported and included correctly in the
          POC accrual for the remainder of the fiscal year.

      Recommendation:
      We recommend that CBP continue to implement the FM&E policies updated for FY 2012.

CBP – FMC 12-20 – Untimely De-Obligation of UDOs and Weaknesses in Related Controls (NFR
No. CBP 12-30)

      During our testwork over CBP’s UDO balance as of August 31, 2012, to include both Active and
      Inactive UDO balances, we selected statistical samples totaling 331 UDOs and noted weaknesses
      in CBP’s monitoring of these obligations. Specifically, the following deficiencies were identified:
      •	 Six instances in which the UDOs were no longer valid and had not been de-obligated, or
          marked for de-obligation.


                                                  15

                                                                                           Section I
                            Department of Homeland Security
                            Financial Management Comments
                                  September 30, 2012


•	 Two instances in which the period of performance (POP) had expired prior to the execution of
   the next modification for a period of five months and for a period of two years and eight
   months, respectively.
•	 One instance in which the contracting officer authorized a modification for a dollar value
   greater than the contracting officer’s warrant authority limit.
•	 Five instances in which an Invoice Receipt variance was corrected via an “MR11” transaction
   in SAP, CBP’s financial system of record. Due to the program design of SAP, the “MR11”
   transaction is the only correcting option available in which the variance is related to a service
   entry sheet. Although the UDO balance is still valid, the “MR11” transaction returned the
   excess funds to either general ledger (GL) account 4610, Allotments – Realized Resources, or
   4650, Allotments – Expired Authority. Thus the UDO balance is understated. Furthermore,
   the “MR11” transaction, which is essentially a de-obligation, is not reflected in GL account
   4871, Downward Adjustments of Prior-Year Unpaid Undelivered Orders – Obligations,
   Recoveries, or 4971, Downward Adjustments of Prior-Year Unpaid Delivered Orders –
   Obligations, Recoveries. As such, the Recoveries line item on the Statement of Budgetary
   Resources (SBR) is understated and the transaction is not compliant with the United States
   Standard General Ledger (USSGL).

As a result of the “MR11” transaction errors identified above, an SAP report was obtained that
captured all of the “MR11” transactions recorded during FY 2012. Based on an analysis
performed over the report, it was determined that the Recoveries line item on the SBR is
understated by approximately $13 million.

During our testwork over CBP’s UDO balance activity during the month of September 2012, we
selected statistical samples totaling 102 UDOs and noted weaknesses in CBP’s monitoring of
these obligations. Specifically, the following deficiencies were identified:
•	 One instance, related to two sample items, in which the POP had expired prior to the
    execution of the next modification for a period of approximately one month.
•	 One instance in which the UDO balance was not valid because the obligation was established
    in SAP on September 19, 2012; however, the Reimbursable Work Agreement (RWA) was
    not authorized and executed until FY 2013. As such, the UDO balance was overstated.

Recommendations:
We recommend that CBP:
•	 Continue to emphasize better communication between the Contracting Officer (CO) and
   Contracting Officer Representative (COR) to obtain a de-obligation request when appropriate.
   In addition, complete the review and implementation of revised CBP Directive No. 1220­
   011E.
•	 Continue to monitor the POP, especially the end date, on active contract actions to avoid
   elapse and ensure SAP is updated with the current POP end date.
•	 Continue to enforce the policy and conduct a random review of award documents to confirm
   that this is an isolated incident.
•	 Reevaluate the MR11 business process to determine if the MR11 procedures or SAP postings
   need to be modified.
•	 Communicate the procedure for processing RWA obligations to applicable staff and monitor
   this process to ensure compliance.




                                             16

                                                                                                    Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


CBP – FMC 12-21 – Deficiencies in the Review of Standard Form (SF)-52 Personnel Action
Request Tracking System Actions (NFR No. CBP 12-31)

      During testwork performed over 45 Personnel Action Request Tracking System (PARTS) actions,
      one action requiring higher level approval was processed without receiving higher level approval.
      Specifically, the PARTS action related to the Office of Field Operations (organizational code
      CU13##) requesting a personnel action for reassignment (personnel action code RA), which
      requires higher level approval.

      Recommendations:
      We recommend that CBP’s Minneapolis Hiring Center:
      •	 Ensure that all Staffing Specialists understand the business rules, which require higher level
         approval when using certain personnel action codes; and
      •	 Monitor PARTS actions to ensure the business rules are being properly applied.

CBP – FMC 12-22 – Deficiencies in the Review of Adjusting Journal Entries (JEs) (NFR No. CBP
12-32)

       During testwork performed over 131 Standard Voucher transactions as of June 30, 2012, one
       Standard Voucher was reversed without receiving proper supervisory approval. Specifically, the
       topside entry recorded in FY 2011 to account for custodial activity for Puerto Rico was reversed
       in FY 2012 by a Staff Accountant without obtaining supervisory approval.

      Recommendation:
      We recommend that CBP modify the Regulatory Reports Section’s Standard Operating
      Procedures (SOP) to require review and approval for reversal of JEs.

CBP – FMC 12-23 – Deficiencies in the Inventory and Related Property Process (NFR No. CBP 12­
33)

       During testwork performed at one of the five Office of Air and Marine (OAM) sites conducting
       an annual inventory, the following discrepancy was identified:
       •	 An inventory item listed on the count sheet was not physically located on the floor. Upon
          review, the Inventory Supervisor determined that the part had been shipped out for repair on
          July 6, 2012, which was prior to the annual inventory. However, the certified count sheets
          received in the completion package reflected an inventory count of one rather than zero.

       During testwork performed over CBP’s Certification of OAM Physical Inventories performed for
       all 34 sites, the following discrepancy was identified:
       •	 One inventory site did not certify its inventory. Upon review, it was determined that the nine
           items listed as located at this site are actually located at a different site. Furthermore, it was
           determined that the nine items were counted during the second sites’ annual inventory and
           were identified during the inventory as having the incorrect location code. However, the
           location code for these nine items was not appropriately updated upon completion of the
           inventory.




                                                    17

                                                                                                  Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


      Recommendations:
      We recommend that CBP:
      •	 Ensure inventory count sheets at the locations accurately reflect inventory data.
      •	 Ensure inventory data in the systems accurately reflect results of inventory counts.

CBP – FMC 12-24 – Deficiencies in Tracking CBP Leases (NFR No. CBP 12-34)

      During testwork performed to verify the completeness of CBP’s September 30, 2012 lease
      population, a sample of 25 lease payments was selected. The following discrepancies were
      identified:
      •	 Five instances in which a payment was made towards a cancellable personal property lease
          agreement in which the lease agreement did not appear in CBP’s listing of leases as of
          September 30, 2012.

      Based on these findings, discussions were held with CBP management to determine completeness
      of the Leases footnote. It was determined that the Leases footnote is considered to be complete
      because the majority of the footnote is comprised of General Services Administration (GSA)
      leases, which are reconciled directly with a report received from GSA. However, CBP cannot
      confirm that it has accounted for all of its personal and real property leases. Though a majority of
      CBP’s real and personal property leases are considered to be cancellable, thus minimizing the
      overall impact on the Leases footnote, the footnote could be misstated because CBP is not aware
      of all of its existing leases.

      Recommendations:
      We recommend that CBP:
      •	 Ensure all Property Plant and Equipment (PP&E) procured through leases are properly
         recorded in SAP.
      •	 In conjunction with efforts to implement the lease scoring tool, utilize the Object
         Classification Code/Material Classification Code to create SAP asset shell records for assets
         procured through lease.




                                                   18

                                                                                                 Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


II.    DOMESTIC NUCLEAR DETECTION OFFICE (DNDO)

DNDO – FMC 12-01 – Deficiencies in the Operating Expense Process (NFR Nos. DNDO 12-01 and
DNDO 12-01a)

      During testwork over operating expenses for the period October 1, 2011 to March 31, 2012, we
      noted the following:
      •	 For 33 out of 33 expenses, the Core Accounting System did not record Accounts Payable
          (USSGL account 2110), Delivered Orders – Obligations, Unpaid (4901), and the relevant
          asset or expense account at the time goods or services are received. Instead, the Core
          Accounting System records Delivered Orders – Obligations, Paid (4902) and the related asset
          or expense account at the time payment is made. DNDO instead records an estimated accrual
          for assets, expenses, and accounts payable related to the goods or services that have been
          received, but not yet paid for. As a result, the items are not recorded in the GL until paid for.
      •	 For 17 out of 33 expenses, IPACs do not require CO, COTR, or Authorized Certifying
          Official (ACO) approval prior to the funds transfer. Therefore, DNDO was unable to provide
          documentation of when goods/services were received.
      •	 For 4 out of 33 expenses, DNDO associated the incorrect trading partner identification
          numbers with Federal vendors.

      During testwork over operating expenses for the period April 1, 2012 – August 31, 2012, we
      noted the following:
      •	 For 18 out of 18 expenses, the Core Accounting System did not record Accounts Payable
          (USSGL account 2110), Delivered Orders – Obligations, Unpaid (4901), and the relevant
          asset or expense account at the time goods or services are received. Instead, the Core
          Accounting System records Delivered Orders – Obligations, Paid (4902) and the related asset
          or expense account at the time payment is made. DNDO instead records an estimated accrual
          for assets, expenses, and accounts payable related to the goods or services that have been
          received, but not yet paid for. As a result, the items are not recorded in the GL until paid for.
      •	 For 6 out of 18 expenses, IPACs do not require CO, COTR, or ACO approval prior to the
          funds transfer. Therefore, DNDO was unable to provide documentation of when
          goods/services were received.
      •	 For 3 out of 18 expenses, DNDO was unable to provide sufficient supporting documentation
          for invoices for the Grant samples transaction amount.

      During testwork over operating expenses for the period September 1, 2012 – September 30, 2012,
      we noted the following:
      •	 For 3 out of 3 expenses, the Core Accounting System did not record Accounts Payable
         (USSGL account 2110), Delivered Orders – Obligations, Unpaid (4901), and the relevant
         asset or expense account at the time goods or services are received. Instead, the Core
         Accounting System records Delivered Orders – Obligations, Paid (4902) and the related asset
         or expense account at the time payment is made. DNDO instead records an estimated accrual
         for assets, expenses, and accounts payable related to the goods or services that have been
         received, but not yet paid for. As a result, the items are not recorded in the GL until paid for.
      •	 For 1 out of 3 expenses, IPACs do not require CO, COTR, or ACO approval prior to the
         funds transfer. Therefore, DNDO was unable to provide documentation of when
         goods/services were received.



                                                   19

                                                                                           Section II
                                Department of Homeland Security
                                Financial Management Comments
                                      September 30, 2012


      •	 For 1 out of 3 expenses, DNDO was unable to provide sufficient supporting documentation of
         invoices for the Grant samples transaction amount.

      Recommendations:
      We recommend that DNDO:
      •	 Review the IPAC process to improve the validation and approval. The COTRs should record
         receipt of the services and approval of IPACs prior to the payment being posted.
      •	 Continue to implement a process during month end to ensure the Coast Guard Finance Center
         (FINCEN) is recording the reclassifications. Additionally, DNDO should continue to review
         the Journal Voucher (JV) prior to FINCEN recording the entry into the Core Accounting
         System until all obligations coded incorrectly are liquidated.

DNDO – FMC 12-02 – Deficiencies Related to Monitoring UDOs (NFR No. DNDO 12-02)

      During testwork over obligations for FY 2012, we noted the following:
      •	 DNDO’s service provider’s financial system, the Core Account System does not have
         adequate transaction codes to process upward/downward adjustments. Manual JV
         reclassifications are made to record GL 4801, GL 4871, GL 4310 and GL 4590 for the prior
         year recovery activity. DNDO does not have a process to separately capture upward
         adjustments (GL 4881, 4882, 4981, and 4982) that are part of the GL 4801 or GL 4901
         balance.
      •	 During their quarterly obligation review, management does not request sufficient support to
         determine if open obligations are valid.
      •	 During testwork over aged UDOs as of September 30, 2012, for 3 out of 5 UDOs, the
         obligation was determined to be invalid as of September 30, 2012. This resulted in an
         overstatement of UDOs in the amount of approximately $342,000 and a likely overstatement
         of approximately $23,574,000.

      Recommendation:
      We recommend that DNDO prioritize reviewing aged UDOs and work closely with the Office of
      Procurement Operations to close out all aged UDOs with expired POPs.




                                                20

                                                                                                  Section III
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


III.   FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA)

FEMA – FMC 12-01 – Inability to Link Systems to Significant Grant Programs (NFR No. FEMA
12-01)

       We requested that FEMA provide an analysis to demonstrate the amount of UDOs flowing
       through each grant system during FY 2012. We asked that the analysis include Catalog of
       Federal Domestic Assistance Number, Grant Program, Responsible Directorate, Award System,
       Monitoring System, Grant Identifier, Obligation System, Obligation Amount, Payment System,
       Payment Amount, and the UDO reconciled balance.

       We noted that a spreadsheet was created based on our request; however, FEMA was unable to
       identify the appropriate monitoring system for each grant program. Additionally, FEMA does not
       maintain a database that links grant systems to significant grant programs to facilitate the
       assessment of system-based controls over obligations and payments related to these programs.

       Recommendations:
       We recommend that FEMA:
       •	 Develop and implement a monitoring control to ensure that the currently developed
          spreadsheet is updated when necessary.
       •	 Implement a process to monitor which grant programs are flowing through which grant
          systems in order to facilitate the assessment of system-based controls over obligations and
          payments related to these programs.

FEMA – FMC 12-02 – Ineffective Design of Controls Related to Grant Activities (NFR No. 12-05)

       Based on control testwork performed over the Payment and Reporting System (PARS) to
       Integrated Financial Management Information System (IFMIS) reconciliation, we noted that the
       control is not properly designed. Instead of ensuring that all transactions from PARS reconcile to
       IFMIS, FEMA has designed the control to only follow-up on system-generated exceptions.
       FEMA has not verified that the system-generated exception list is complete and accurate.
       Therefore, the reconciliation currently performed does not ensure that the PARS transactions
       which were accepted by IFMIS were properly posted and all transactions within PARS were
       uploaded.

       Based on control testwork performed over the March 31, 2012, grant accrual review checklists,
       we noted several "prepared by" and "reviewed by" boxes had not been signed by the appropriate
       individuals.

       Recommendations:
       We recommend that FEMA:
       •	 Enhance current PARS to IFMIS reconciliation procedures to ensure they are performed at a
          sufficiently detailed level to identify and correct any errors in data transfer activities between
          the systems.
       •	 Reinforce with FEMA staff the control points established within the quarterly grant accrual
          checklist to ensure all control activities were completed in the quarterly process.




                                                    21

                                                                                             Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


FEMA – FMC 12-03 – Ineffective Design of Controls Related to Intragovernmental Activities (NFR
No. FEMA 12-06)

       Based on control testwork performed over the Federal Transit Administration (FTA) advance, we
       noted the COTR did not review the FTA expenditures as of December 31, 2011, or March 31,
       2012, prior to them being recorded in IFMIS.

       Recommendation:
       We recommend that FEMA develop and implement a process to ensure timely COTR review and
       approval of FTA expenditures related to advance liquidation.

FEMA – FMC 12-04 – Internal Control Deficiencies Identified over Claims Paid at Selected
Insurance Companies that Participate in FEMA’s National Flood Insurance Program (NFIP) (NFR
Nos. FEMA 12-07 and FEMA 12-07a)

       We selected nine insurance companies and tested a sample of 263 claim payments across those
       companies covering October 1, 2011 to March 31, 2012. During this testing, we noted the
       following errors at the insurance companies:
       •	 For one sample item, the date of loss was incorrectly reported.
       •	 For five sample items, a 60-day Proof of Loss waiver was not requested.
       •	 For two sample items, a 60-day Proof of Loss waiver was requested subsequent to payment.
       •	 For one sample item, the Proof of Loss modification letter was not issued in a timely manner.

       For the nine insurance companies previously selected, we tested a sample of 126 claim payments
       across those companies covering April 1, 2012 to June 30, 2012. During this testing, we noted
       the following errors at the insurance companies:
       •	 For one sample items, a 60-day Proof of Loss waiver was not requested.
       •	 For one sample item, a 60-day Proof of Loss waiver referenced an incorrect claim.
       •	 For two sample items, the claim amount paid did not agree to the final report.
       •	 For two sample items, the claim loss date reported did not match the claim loss date in the
           claim file.

       For the nine insurance companies previously selected, we tested a sample of 45 claim payments
       across those companies covering July 1, 2012 to August 31, 2012. During this testing, we noted
       the following error at the insurance companies:
       •	 For one sample item, the claim paid amount did not agree to the final report.

       Recommendations:
       We recommend that FEMA:
       •	 Follow-up with each of the insurance companies to determine that appropriate corrective
          action has been implemented to address the exceptions noted.
       •	 Provide increased oversight to insurance companies participating in the NFIP to ensure
          claims files are being processed and reviewed in accordance with NFIP guidelines before
          approval and issuance of claim payments.




                                                  22

                                                                                             Section III
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2012


FEMA – FMC 12-05 – Deficiencies Identified over Premiums Written by FEMA’s NFIP (NFR Nos.
FEMA 12-09 and FEMA-12-09a)

      We tested a total of 296 written premium transactions during the period October 1, 2011 to March
      31, 2012, which included the following: (a) a sample of 270 written premium transactions across
      nine insurance companies for internal control testwork and (b) a sample of 26 written premium
      transactions across 13 insurance companies for substantive testwork. We noted the following
      items:
      •	 For one sample item, we noted the policy was not reviewed and approved by an underwriter
          in a timely manner.
      •	 For eight sample items, we noted that the designated flood zone per the policy declaration
          page did not agree to the FEMA flood maps for the insured property address. Based on the
          incorrect flood zone used, we noted that the policy premium was calculated incorrectly.
      •	 For one sample item, we noted that the designated flood zone per the policy declaration page
          did not agree to the FEMA flood maps for the insured property address; however, per the
          NFIP Flood Insurance Manual, the premium amount was not affected by the incorrect zone.

      We tested a total of 142 written premium transactions during the period April 1, 2012 to June 30,
      2012, which included the following: (a) a sample of 135 written premium transactions across nine
      insurance companies for internal control testwork and (b) a sample of 7 written premium
      transactions across 7 insurance companies for substantive testwork. We noted the following
      items:
      •	 For one sample item, we noted the policy was not reviewed and approved by an underwriter
          in a timely manner.
      •	 For three sample items, we noted that the designated flood zone per the policy declaration
          page did not agree to the FEMA flood maps for the insured property address. Based on the
          incorrect flood zone used, we noted that the policy premium was calculated incorrectly.
      •	 For four sample items, we noted that the designated flood zone per the policy declaration
          page did not agree to the FEMA flood maps for the insured property address; however, per
          the NFIP Flood Insurance Manual, the premium amount was not affected by the incorrect
          zone.
      •	 For one sample item, we noted that the insured property address information provided on the
          policy declaration page was insufficient to determine the correct flood zone.

      We tested a total of 58 written premium transactions during the period July 1, 2012 to August 31,
      2012, which included the following: (a) a sample of 45 written premium transactions across nine
      insurance companies for internal control testwork and (b) a sample of 13 written premium
      transactions across 13 insurance companies for substantive testwork. We noted the following
      items:
      •	 For three sample items, we noted that the designated flood zone per the policy declaration
          page did not agree to the FEMA flood maps for the insured property address. Based on the
          incorrect flood zone used, we noted that the policy premium was calculated incorrectly.
      •	 For one sample item, we noted that the insured property address information provided on the
          policy declaration page was insufficient to determine the correct flood zone.
      •	 For one sample item, we noted that the premium was calculated using the incorrect elevation
          information on the elevation certificate.




                                                 23

                                                                                              Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


       Recommendations:
       We recommend that FEMA:
       •	 Follow-up with each of the insurance companies noted above to determine that they have
          implemented the appropriate corrective action to address the exceptions identified.
       •	 Provide increased oversight to insurance companies participating in the NFIP to ensure they
          process and review underwriting files in accordance with NFIP guidelines.
       •	 Revise the NFIP Flood Insurance Manual to require that all flood zones included in
          insurance policy applications are subject to verification by an underwriter through the use of
          risk-based sampling techniques.

FEMA – FMC 12-06 – Ineffective Controls over Procurement Payments and Monitoring Efforts
(NFR No. FEMA 12-10a)

       Payments:
       •	 Based on our control testwork performed over a sample of 30 vendor payments for the three-
          month period ended June 30, 2012, we noted that for 1 of the 30 transactions selected, no
          receiving report was completed.
       •	 Based on our control testwork performed over a sample of 30 disaster travel payments for the
          three-month period ended June 30, 2012, we noted that for 1 of the 30 transactions selected,
          the payment was not properly approved and certified for payment prior to being recorded in
          the IFMIS.

       Monitoring Efforts:
       •	 Based on our control testwork performed over a sample of 25 UDOs with a balance at June
          30, 2012, we noted that for 1 of the 25 UDOs selected, the program contact had indicated as
          of the March 31, 2012, UDO quarterly review that the balance could be de-obligated. As of
          June 30, 2012, the balance still remained open.

       Recommendations:
       We recommend that FEMA:
       •	 Develop a monitoring control to ensure proper adherence to existing policies regarding the
          review and approval of obligations and related expenditures.
       •	 Develop a monitoring control to ensure proper adherence to existing document retention
          policies and procedures for expenses.
       •	 Execute updates to UDO balances within 30 days of receipt of responses to the quarterly
          review and annual validation of UDOs.

FEMA – FMC 12-07 – Ineffective Controls over Procurement and Non-Compliance with Federal
Acquisition Regulation (NFR No. FEMA 12-10b)

       Based on our control and compliance testwork performed over a sample of six contracts for the
       three-month period from July 1, 2012 – September 30, 2012, we noted the following exceptions:
       •	 For two of the six contracts tested, the contract file checklist associated with the related
           contract was not provided.
       •	 For one of the six contracts tested, only the closeout documentation was provided to support
           the sample.
       •	 For one of the six contracts tested, the contract provided was not signed by the contractor.



                                                  24

                                                                                               Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


       Recommendation:
       We recommend that FEMA develop and implement a monitoring program to ensure FEMA
       complies with all aspects of the Federal Acquisition Regulation and any controls implemented
       (i.e. contract file checklist) to aid in determining compliance with the Federal Acquisition
       Regulation.

FEMA – FMC 12-08 – Deficiencies in the Monthly Budget Execution Reviews (NFR No. FEMA 12­
11)

       In July 2011, FEMA management implemented the use of the RM Online system to produce
       monthly budget execution reports based on approved spend plans and expenditure data extracted
       directly from the IFMIS data warehouse. Based on our walkthrough and inquiries, we noted that
       the RM Online system had not been consistently used during FY 2012 to compare spend plans to
       actual expenditure data. To mitigate deficiencies in the RM Online system, Budget Planning and
       Analysis Division personnel manually modified the reports generated by the system to perform
       monthly budget execution reviews; however, no documented controls existed over the preparation
       and review of these manual budget execution reports.

       Recommendation:
       We continue to recommend that FEMA revise standard operating procedures, including
       appropriate internal controls, over the preparation and review of monthly budget execution
       reports to ensure that: (1) a consistent process is established and implemented to monitor budget
       execution; (2) the information systems used for monitoring budget execution are aligned with
       FEMA’s business processes; and (3) proper review of the monthly budget execution reports are
       performed prior to posting on FEMA’s intranet.

FEMA – FMC 12-09 – Deficiencies Identified in the Integrated Financial Management Information
System Chart of Accounts and Transaction Codes (NFR Nos. FEMA 12-12 and FEMA 12-12a)

      Based on our review of FEMA’s FY 2012 IFMIS chart of accounts as of June 30, 2012, we noted
      the following exceptions:
       •	 Ten accounts listed in the IFMIS chart of accounts were not listed within the 2012 USSGL
           Chart of Accounts.
       •	 Four accounts were incorrectly labeled in the IFMIS chart of accounts, when compared to the
           2012 USSGL Chart of Accounts.
       •	 Four accounts were mapped incorrectly or listed under the wrong primary account in the
           IFMIS chart of accounts, when compared to the 2012 USSGL Chart of Accounts.
       •	 Two accounts that were not included in the 2012 USSGL Chart of Accounts were marked as
           removed, but still existed within the IFMIS chart of accounts.

      Based on our testwork performed over a sample of 24 transaction code numbers and 75 total
      transaction code transactions as of June 30, 2012, we identified that 17 transaction code
      transactions were not in compliance with the USSGL.

      Based on our testwork performed over a sample of six transaction code numbers and 23 total
      transaction code transactions as of September 30, 2012, we identified that eight of the 23 total
      transaction code transactions selected for testwork were not in compliance with the USSGL.



                                                   25

                                                                                             Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


       Recommendations:
       We recommend that FEMA:
       •	 Develop and implement a monitoring process to periodically review the IFMIS chart of
          accounts to ensure it is in compliance with the USSGL.
       •	 If prior year accounts are necessary to post beginning balances, develop and implement
          procedures to ensure accounts are deactivated timely once beginning balances are recorded.
       •	 Develop a comprehensive transaction code crosswalk to determine whether IFMIS transaction
          codes are in compliance with the USSGL and why some transaction codes deviate from the
          USSGL.
       •	 Review SOP 2600-004 to ensure the SOP properly addresses compliance with the USSGL,
          and update as necessary.

FEMA – FMC 12-10 – Deficiencies in the Preparation and Review of the Government
Accountability Office (GAO) Financial Audit Manual 2010 – Checklist for Federal Accounting
(NFR No. FEMA 12-14)

       Upon independent review of FEMA’s initial Checklist as of March 31, 2012, we determined
       FEMA did not properly complete all questions in the Checklist, as follows:
       •	 Responses to five questions which provided options for accounting methods included one
          response and did not indicate which option was applicable.
       •	 Eleven explanations provided in the Checklist required more information per the Checklist
          instructions.
       •	 Responses to four questions were not consistent with the accounting policies and operations
          currently implemented at FEMA.

      Although the Checklist was reviewed for completeness, accuracy, and validity and approved by
      FEMA management in accordance with the FY 2012 DHS Office of Financial Management
      (OFM) Component Requirements Guide for Financial Reporting, inconsistencies in the Checklist
      noted were not identified by the review.
       Recommendation:
       We recommend that the FEMA Office of Chief Financial Officer (OCFO) develop and
       implement standard operating procedures over the annual preparation and review of the GAO
       Financial Audit Manual 2010 – Checklist for Federal Accounting.
FEMA – FMC 12-11 – Deficiencies in the Development of Mission Assignment Policies and
Procedures (NFR No. FEMA 12-15)

       Under SOP Number 2600-007, Financial Processing of Mission Assignments, dated March 20,
       2012, FEMA requires mission assignment-related UDO balances to be validated annually as of
       June 30th of each year. Per Section 4-5 III. B of the SOP:

               “FEMA Finance Center Integrated Planning System retains copies of all validation
               correspondence with the Other Federal Agencies (OFAs) and Recovery Offices in the
               respective mission assignment file. FEMA Finance Center Integrated Planning System
               reviews OFA responses and follows up with OFAs as needed. If an OFA has not
               provided validation or responded to the quarterly reviews and/or the annual validation
               request, FEMA, on a case- by-case basis, will follow up with the OFA to request
               validation and provide notification that continued non-response beyond the deadline will



                                                  26

                                                                                               Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


               result in FEMA Finance Center recommendation to the mission assignment Manager to
               initiate close-out. Such correspondence is addressed to the OFA and Recovery Office.”

       However, FEMA does not designate an escalation process or closeout timeline to ensure the
       mission assignment UDO balance is validated or closed out prior to fiscal year-end.

       Recommendation:
       We recommend that FEMA develop and implement an escalation process and closeout timeline
       for instances where the OFA does not provide validation of the mission assignment in a timely
       manner.

FEMA – FMC 12-12 – Inadequate Documentation Related to Payroll Processing and Lack of
Formal Policies and Procedures (NFR No. FEMA 12-17)

       Based on process walkthroughs and interim internal control testwork, we determined FEMA does
       not have policies and procedures for resolving leave error discrepancies.

       We identified a control gap related to the lack of reconciliation between payroll data submitted
       through Web Time and Attendance (WebTA) and payroll disbursements by the National Finance
       Center.

       From a sample of 45 individuals selected for leave error resolution testwork, we identified 28
       leave errors that were not corrected within one pay period. Additionally, of those 28 errors, 13
       errors were not corrected by year-end.

       From a sample of 15 new hires selected for testwork over the review and approval of SF-52, we
       identified two instances in which SF-52 were not approved by the Budget Division. We also
       identified one instance in which the SF-52 was approved after the employee started with the
       agency.

       From a sample of 58 individuals selected for payroll compliance testwork, we identified the
       following instances in which FEMA was unable to provide the following supporting
       documentation:
       •	 Three Notices of Personnel Action Forms (SF-50s) – documents an employee’s pay
           grade/step, position, salary information, employment date, etc.
       •	 Three Leave and Earnings Statements – documents an employee's pay and leave status for
           each pay period.
       •	 Four WebTA records – employee’s official timesheet for the pay period.
       •	 19 Federal Employees’ Health Benefits (FEHB) election forms.
       •	 27 Thrift Savings Plan (TSP) election forms.
       •	 22 Federal Employees’ Group Life Insurance (FEGLI) election forms.
       •	 Any NFC screen prints for all 58 sample items.

       Recommendations:
       We recommend FEMA:
       •	 Develop, approve and implement policies and procedures for resolving leave error
          discrepancies.



                                                   27

                                                                                             Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


       •	 Implement a control to reconcile payroll information submitted to NFC through WebTA with
          the related disbursement made by NFC.
       •	 Formalize and monitor the control over the review and resolution of leave error
          discrepancies.
       •	 Ensure all SF-52 forms are properly approved in a timely manner as required.
       •	 Maintain adequate documentation for all payroll information, including benefit elections and
          approved salary amounts.

FEMA – FMC 12-13 – Ineffective Monitoring of Internal Controls via the Internal Control Board
(NFR No. FEMA 12-18)

       FEMA established the Internal Control Board to take on the responsibilities for developing and
       implementing formal processes to provide oversight of internal control assessments and
       improvements; establish a FEMA-wide accountability structure; and monitor ongoing internal
       control activities. In FY 2012, FEMA could not provide evidence indicating Internal Control
       Board meetings were held in accordance with the Internal Control Board Charter.

       Recommendation:
       We recommend FEMA hold Internal Control Board meetings in accordance with its charter, or
       revise its charter to utilize established management meetings to monitor internal controls and
       document the minutes of those meetings.

FEMA – FMC 12-14 – Lack of Documentation Related to the Contingent Legal Liabilities Review
(NFR No. FEMA 12-19)

       As of June 30, 2011, Financial Statements and Reporting Branch (FSRB)-3013, Contingent Legal
       Liabilities Review and Disclosure, established an SOP over contingent legal liabilities for
       FEMA’s Office of Chief Counsel and OCFO FSRB, which is located within the Financial
       Management Division.

       In preparing these SOPs, management referred to DHS Financial Management Policy Manual
       Chapter 3.10 Legal Liabilities; DHS Delegation 0400.2, Delegation to the General Counsel, dated
       September 14, 2004; DHS Delegation to the General Counsel Regarding Claims Authority, dated
       March 9, 2007; and DHS Component Requirements Guide for Financial Reporting.

       The FSRB Chief did not document her review of the interim contingent liability information as of
       June 30, 2012, as required by the Contingent Legal Liabilities Review and Disclosure SOP.

       Recommendation:
       We recommend that FEMA document its review of the contingent legal liability accrual and
       disclosure in accordance with its written policies and procedures.




                                                  28

                                                                                              Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


FEMA – FMC 12-15 – Deficiencies Identified over Claims’ Loss Reserves at Selected Insurance
Companies that Participate in FEMA’s NFIP (NFR Nos. FEMA 12-20 and FEMA 12-20a)

      We selected nine insurance companies and tested a sample of 263 claim payments and across
      those companies covering October 1, 2011 to March 31, 2012, and 65 loss reserve balance as of
      March 31, 2012, across all NFIP insurance companies. During this testing, we noted the
      following errors at the respective insurance companies:
      •	 For three sample items, the claim and related loss reserve were not closed without payment in
          a timely manner, causing reserves to be overstated.
      •	 For one sample item, the incorrect type of loss reserve related to the claim transaction was
          established.
      •	 For one sample item, the loss reserve related to the claim transaction was not updated properly
          to move reserves from Building to Contents, causing Building reserves to be overstated and
          Contents reserves to be understated.
      •	 For 29 sample items, the loss reserve related to the claim transaction was not updated properly
          to reflect claim payments or additional adjustor reports, causing reserves to be overstated or
          understated.
      •	 For one sample item, reserves were incorrectly re-established for a claim that was previously
          closed without payment, causing reserves to be overstated.
      •	 For one sample item, the loss reserve related to the claim transaction was not established for a
          supplemental payment request. Payment was not made in a timely manner, causing reserves to
          be understated.
      •	 One insurance company did not adjust loss reserves based on the final report. Additionally,
          for 20 sample items at that company, the loss reserve related to the claim transaction was not
          updated upon receipt of the final report.

      We selected nine insurance companies and tested a sample of 171 claim payments across those
      companies covering April 1, 2012 to August 31, 2012 (126 as of June 30, 2012 and 45 as of
      August 31, 2012) and 65 loss reserve balances as of August 31, 2012 across all NFIP insurance
      companies noting similar types of errors as identified through March 31, 2012.

       Recommendations:
       We recommend that FEMA:
       •	 Follow-up with each of the insurance companies to determine that appropriate corrective
          action has been implemented to address the exceptions noted.
       •	 Provide increased oversight to insurance companies participating in the NFIP to ensure the
          specific and consistent establishment and reporting of loss reserves and subsequent
          adjustments to the loss reserves.

FEMA – FMC 12-16 – Issues Identified in Journal Voucher Testwork (NFR Nos. FEMA 12-23 and
FEMA 12-23a)

       Based on our journal voucher (JV) testwork as of March 31, 2012, we noted that for 1 of 51 JV
       sample items the vendor code per the hard copy JV did not agree to the transaction posted in
       IFMIS. The entry recorded in IFMIS was correct; however, the hard copy JV did not properly
       reflect the correct attributes indicating the hard copy JV document was not properly reviewed and
       approved.



                                                  29

                                                                                              Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


      We noted 7 of 51 JV sample items were corrections of previous JVs that would not have been
      necessary if the original entry was properly reviewed and approved to determine if the budget
      object classification code (BOC) was proper.

      Based on our JV testwork as of June 30, 2012, we noted that for 1 of 40 JV sample items the
      original entry was recorded in the reverse order. The incorrect entry required a correcting entry
      to properly post the transaction. The entry should have been reviewed to ensure proper posting
      logic prior to the entry being recorded in IFMIS.

      We noted for 1 of 40 JV sample items, the amount per the hard copy JV did not agree to the
      transaction posted in IFMIS. The incorrect amount indicates the hard copy JV was not properly
      reconciled to the posting in IFMIS prior to being reviewed and approved.

      We noted for 2 of 40 JV sample items, the entries posted did not support FEMA’s intended
      underlying transaction. The entries improperly impacted the SBR. As the entries were only
      intended to reclassify attributes, and not impact account balances, the entries were improper and
      should not have been recorded. The incorrect entries required additional entries to post the
      correct activity and correct the balances.

      We noted 1 of 40 JV sample items should not have been recorded as the correct entry was already
      recorded via another JV, causing this JV to be unnecessary. The incorrect entry required an
      additional entry to reverse the improper effect.

      Based on our JV testwork as of September 30, 2012, we noted that for 1 of 37 JV sample items
      the hard copy JV did not agree to the transaction posted in IFMIS. The hard copy JV indicated
      the JV should be set up to auto reverse and the JV was not set to auto reverse in IFMIS.
      Therefore, the entry recorded in IFMIS did not properly reflect the hard copy JV document that
      was reviewed and approved.

      We noted 4 of 37 JV sample items were not in full compliance with the USSGL and additional
      USSGL guidance included in the Guide for Basic Accounting Reporting for Direct Loan
      Programs without Collateral in Federal Credit Program.

      Recommendation:
      We recommend that FEMA dedicate sufficient resources to ensure JVs are timely and thoroughly
      researched, reviewed, and approved prior to entering them into IFMIS. Proper review should
      include determining that the correct BOCs and USSGL accounts are used in the JVs.

FEMA – FMC 12-17 – Non-Compliance with the Prompt Payment Act (NFR No. FEMA 12-24)

      Based on our testwork performed over a sample of 78 vendor payments made during FY 2012,
      we noted that four of the payments were not made within the required time period (within 30 days
      of the receipt of the invoice or acceptance of goods) and FEMA did not pay the required interest
      penalty for the late payments.




                                                  30

                                                                                             Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


       Recommendations:
       We recommend that FEMA:
       •	 Develop a monitoring control to ensure adherence to existing Prompt Payment policies and
          procedures for all applicable payment activities, and
       •	 Provide additional training to ensure invoices are entered into IFMIS timely and the payment
          due date is entered correctly.

FEMA – FMC 12-18 – Lack of Communication to Employees Regarding the Department of
Homeland Security Office of Inspector General Hotline and the Code of Conduct (NFR No. FEMA
12-25)

       Based on testwork conducted over a sample of 15 employees as to whether they were aware of
       the DHS/FEMA Code of Conduct and knew how to access the DHS/FEMA Code of Conduct, we
       noted one employee did not provide a response to our question.

       Additionally, based on testwork performed over a sample of 15 FEMA employees questioned as
       to whether they were aware of the DHS Office of Inspector General Hotline, we noted one
       employee did not provide a response to our question.
       Recommendation:
       We recommend that FEMA management improve communications to their employees regarding
       the existence of the DHS Office of Inspector General Hotline and the FEMA Code of Conduct,
       their importance, and the situations in which the hotline should be used.

FEMA – FMC 12-19 – General Office of Chief Procurement Officer Lack of Responsiveness and
Process Knowledge (NFR No. FEMA 12-26)

       Contract File Maintenance:
       During our testwork over vendor contract obligations as of March 31, 2012, we requested
       complete contract files for each selected sample. We noted that the Office of Chief Procurement
       Officer (OCPO) was unable to provide complete contracts, identify requested obligation
       documents, or identify the documents required under Federal Acquisition Regulations for various
       samples selected. Furthermore, we noted that various samples were not provided in a timely or
       efficient manner.

       General Document Availability:
       During our testwork over vendor contract validity, we requested documentation to support the
       validity, including the period of performance, for a selected sample of 168 contracts. We noted
       that OCPO was unable to provide support for the validity of the vendor contracts. As an
       alternative procedure, the FEMA Finance Center was able to provide documentation supporting
       vendor payment activity to validate the selected balances.

       General Procurement Knowledge and Personnel Accessibility:
       •	 When asked questions regarding common procurement documents, such as contracts or
          invoices, we noted that OCPO employees were not familiar with or were not knowledgeable
          of the subjects and would request that we discuss questions with other points of contact.




                                                  31

                                                                                                Section III
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


       Recommendations:
       We recommend that OCPO:
       •	 Implement a uniform system of document retention and organization and set clear guidelines
          on documentation uniformity.
       •	 Implement a clear set of guidelines and responsibilities for all employees in a financial
          procurement capacity. OCPO should conduct training so employees are aware of
          responsibilities assigned to them and knowledgeable of their process areas.

FEMA – FMC 12-20 – Inability to Closeout Assistance to Firefighter Grants (NFR No. FEMA 12­
27)

       During our testwork performed over Assistance to Firefighter Grants (AFG), we noted that
       system closeout issues continue to exist in FY 2012. Although a manual process was
       implemented in June 2011, currently, only grant awards from FY 2002 through FY 2007 are
       being closed out manually. Continuing issues prevented closeouts related to grant awards from
       FY 2008 through FY 2010. (The award process for AFG grants takes place during the 4th quarter
       of the fiscal year; as such, FY 2011 AFG grants do not require closeout in the current fiscal year.)

       Recommendations:
       We recommend that the Grants Program Directorate:
       •	 Implement planned modifications to the AFG system that are designed to enable the closeout
          of AFG awards from FY 2008 through FY 2010.
       •	 Utilize the established manual closeout process for AFG awards prior to FY 2008 and for
          subsequent awards until the system capability exists to complete closeouts.

FEMA – FMC 12-21 – Deficiencies in the Monitoring of Staffing Requirements (NFR No. FEMA
12-30)

       When reperforming the reconciliation of the OCFO staffing roster as of August 2012 with the
       OCFO organizational chart as of August 2012, we noted 21 instances in which the staffing roster
       had not been updated based on updates to the organizational chart.

      Recommendations:
      We recommend that FEMA:
      •	 Develop and implement policies and procedures to update the OCFO staffing roster timely.
          These policies and procedures should include a control to ensure the staffing roster is
          accurate and is reconciled to the organizational chart on a periodic basis.
      •	 Monitor the effectiveness of the newly developed and implemented control.

FEMA – FMC 12-22 – Improvements Needed in Management’s Review of the Legacy Preparedness
Accrual Model (NFR No. FEMA 12-31)
       Our review of FEMA’s legacy preparedness grant accrual process revealed the following
       deficiencies within the process as of March 31, 2012:
       •	 Variances between estimated and actual advances and liabilities that exceed the acceptable
           variance range thresholds established by FEMA policies were not adequately addressed. The
           advance variances at September 30, 2011, and December 31, 2012, were $16.4 million and



                                                   32

                                                                                        Section III
                            Department of Homeland Security
                            Financial Management Comments
                                  September 30, 2012


    $(49.4) million respectively. Additionally, the liability variances at September 30, 2011, and
    December 31, 2012, were $130.8 million and $(291.3) million respectively.

Our review of FEMA’s legacy preparedness grant accrual process revealed the following
deficiencies within the process as of September 30, 2012:
•	 The underlying drawdown data used to formulate the accrual amount was understated during
    the September 30, 2012, model application. We noted that due to a PARS system error on
    July 12, 2012, all drawdowns on that day were entered manually under one user id and as
    such were not included in the model’s original underlying data for one user id. The total
    drawdown omission amount, approximately $105,571,000, which had an impact of
    approximately $5 million. FEMA did not record an on-top adjustment related to the
    discrepancy.
•	 The underlying data, as confirmed with grantees, contained several discrepancies between the
    expenditures reported and those used in the accrual model. Upon review of these amounts,
    we noted that several differences were due to timing errors (between FEMA and the
    Grantee’s reporting systems). Several of the amounts, however, were discrepancies due to an
    internal PARS error. Within PARS, grantees are able to submit expenditures in the 90 day
    period following the submission of a final Federal Financial Report and date those
    expenditures to the final Federal Financial Reports. As grantees are able to report
    expenditures to prior Federal Financial Reports, the expenditure data used in the September
    30, 2012, model includes expenditures from the fourth quarter. FEMA was unable to provide
    a complete population of all expenditures reported in the fourth quarter that were back-dated
    to final Federal Financial Reports (from the 3rd quarter). As such, FEMA was unable to
    quantify the amount of the information that should have been excluded from the underlying
    model data.
•	 Variances between estimated and actual advances and liabilities that exceed the acceptable
    variance range thresholds established by FEMA policies were not adequately addressed. The
    liability variance at June 30, 2012, was $105.8 million.

Our review of FEMA’s Grants and Training grant accrual process revealed the following
deficiency within the process for the FY 2012:
•	 The management review of the acceptable variance range is only completed annually and was
    not completed for FY 2012.

Recommendations:
We recommend that FEMA management:
•	 Conduct training to ensure that the individuals responsible for preparing and reviewing the
   grant accrual clearly understand their roles and responsibilities for the preparation and review
   of the grant accruals.
•	 Review and resolve, and document the resolution of large variances between estimated and
   actual advances and liabilities, including assessing the reasonableness of the estimation
   methodology.
•	 Conduct training to ensure grantees understand the SF-425 form and complete it properly.




                                            33

                                                                                                 Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


FEMA – FMC 12-23 – Untimely Reduction of Invalid Unfilled Customer Orders (UCOs) (NFR No.
FEMA 12-32)

      In two samples of 20 total opening UCO balances, we identified seven errors that overstated the
      opening balance by $75 million and three additional errors that understated the balance by $27
      million. In interim and final samples of 7 items and 6 items, respectively, we identified 1 error
      that overstated the ending balance by $17 million and 4 errors that overstated the balance by $54
      million.

      In each of the samples, we identified agreements with expired POPs, balances unsupported by
      open obligations, unsupported JVs, or inaccurately recorded cash collections. Several of the
      current year exceptions were transactions that should have been recorded in prior years.

      Recommendation:
      We recommend that FEMA develop procedures to monitor the status of recorded UCOs to
      determine that they remain valid and accurately recorded. We further recommend that FEMA
      consider implementing management level reviews to routinely review the aging of UCOs.

FEMA – FMC 12-24 – Improvements Needed in Management’s Review of the Acceptable Variance
Range for the SmartLink Accrual Model (NFR No. FEMA 12-34)

      Our review of the SmartLink grant accrual process revealed the following deficiencies within the
      process as of March 31, 2012:
      •	 A variance between estimated and actual advances that exceed the acceptable variance range
          thresholds established by FEMA policies was not adequately addressed. The advance
          variance at December 31, 2011, was $26.9 million. This discrepancy fell outside the target
          error rate for the advance estimates for the SmartLink grant accrual.

      Our review of the SmartLink grant accrual process revealed the following deficiencies within the
      process as of September 30, 2012:
      •	 Variances between estimated and actual advances and liabilities that exceed the acceptable
          variance range thresholds established by FEMA policies were not adequately addressed. The
          advance variance at March 31, 2012, was $23.1 million. Additionally, liability variances at
          June 30, 2012, and March 31, 2012, were $86.6 million and $96.1 million, respectively.
          These discrepancies fell outside the target error rate for the advance and liability estimates for
          the SmartLink grant accrual.

      Our review of the SmartLink grant accrual process revealed the following deficiency within the
      process for FY 2012.
      •	 The management review of the acceptable variance range is only completed annually and was
          not completed for FY 2012. The most recent acceptable variance range review was
          documented on December 31, 2010.

      Recommendations:
      We recommend that FEMA management:
      •	 Review, resolve, and document the resolution of large variances between estimated and
         actual advances and liabilities, including assessing the reasonableness of the estimation
         methodology.


                                                   34

                                                                                               Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


       •   Conduct training to ensure grantees understand the SF-425 form and complete it properly.

FEMA – FMC 12-25 – Deficiencies in the Methodology and Controls Related to the Non-Grant,
Non-Intragovernmental Accounts Payable Accrual (NFR No. FEMA 12-37)

      Based on our review of the accounts payable accrual model methodology, an accounts payable
      accrual is not generated for the following fund codes and BOCs, and the Intergovernmental
      Accrual Process does not specifically address the accrual process for the following funds:
      •	 Fund codes 79, 87-89, 8C, 9B, and 9C (all related to limited and no-year funds for the
          Chemical Stockpile Emergency Preparedness Program)
      •	 Fund code H7 (related to State and Local Programs Fund - Public Safety Interoperable
          Communications)
      •	 BOC codes 2503 (Delegation of Authority – Disaster Unemployment Assistance) and 2504
          (Delegation of Authority – Crisis Counseling Assistance)

      During testwork performed over the September 30, 2012, accounts payable accrual, we noted that
      upon request for the reconciliation of the UDO data used to calculate the UDO constraints in the
      JV Limit tab to the GL, FEMA noted a discrepancy of nearly $2 billion between the GL and the
      UDO data included in the model. As the UDO data used to calculate the JV Limit tab was
      understated, this resulted in an inaccurately low JV Limit, which resulted in the original
      submission of the accrual to be understated by $15 million.

      Recommendations:
      We recommend that FEMA:
      •	 Incorporate an assessment of the BOCs and funds noted above into the Quarterly Accounts
          Payable Accrual Process and document the assessment.
      •	 Adequately perform and review all steps listed on the accounts payable accrual model
          checklist to ensure inputs to the model are accurate.

FEMA – FMC 12-26 – Deficiency Identified Related to the Preparation and Review of the
Retrospective Review Analysis (NFR No. FEMA 12-38)

      The December 31, 2011, retrospective review completed by the third party contractor actuary and
      reviewed by the FEMA actuary did not include a comprehensive discussion of the large
      redundancy ($1.3 billion) of the actuarial insurance liability calculated as of September 30, 2011.

       Recommendation:
       We recommend that FEMA incorporate a comprehensive analysis of any large fluctuations noted
       in the actual to estimate comparison of the insurance liability in the retrospective review
       performed.

FEMA – FMC 12-27 – Deficiencies in the Verification and Collection of Required Supplementary
Stewardship Information and Performance Measurement Data for the Annual Financial Report’s
Management’s Discussion and Analysis (NFR No. FEMA 12-39)

       In the FY 2012 DHS Annual Financial Report, FEMA did not report any Required
       Supplementary Stewardship Information for Nonfederal Physical Property. However, as part of



                                                  35

                                                                                     Section III
                          Department of Homeland Security
                          Financial Management Comments
                                September 30, 2012


FEMA’s operations, grants are made to State and Local Governments for construction and
equipment. FEMA does not currently have an official policy related to these expenditures and
does not track the amount of such expenditures.

In the FY 2012 DHS Annual Financial Report, information for one performance measurement
was not provided by FEMA’s program offices.

Recommendations:
We recommend that FEMA:
•	 Develop and implement policies and procedures to account for Nonfederal Physical Property
    that includes determining the proper reporting requirements and the monitoring of the
    materiality of such items.
•	 Develop and implement a process to ensure that performance measures can be objectively
    tracked, calculated, and verified.
•	 Develop and implement a review process to validate the data and the performance
    measurement calculations prior to submission to DHS.




                                          36

                                                                                              Section IV
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


IV.    FEDERAL LAW ENFORCEMENT TRAINING CENTER (FLETC)

FLETC – FMC 12-01 – Deficiencies in the Financial Disclosure Reporting Process (NFR No.
FLETC 12-01)

       During testwork over a sample of three employees who filed OGE Form 278, Executive Branch
       Personnel Public Financial Disclosure Reports, and three employees who filed OGE Form 450,
       Confidential Financial Disclosure Report, in FY 2012, the following deficiencies were identified:
       •	 One incumbent employee’s OGE Form 278 was not signed and dated by the reviewing
           official. (We noted evidence of review on the hard copy document, but the electronic
           signature was not included on the form.)
       •	 Two incumbent employees’ OGE Form 450s were not signed and dated by the reviewing
           official in a timely manner. Evidence that initial review and request for additional
           information within 60 days of filing was not provided. The time period between the initial
           review, submission of the required information by the filers and the final signature of the
           ethics official was approximately six months.

       Recommendations:
       We recommend that FLETC:
       •	 Revise its internal process to require that the reviewing attorney annotate in the comment
          section the date of the initial review and the due date for the requested information.
       •	 Initiate a more formal process for requesting the additional information as well as a suspense
          system for the files for which additional information was requested.

FLETC – FMC 12-02 – Deficiencies in the Review of SF-50s (NFR No. FLETC 12-03)

       During our payroll testwork we identified two employees for which we were unable to re­
       calculate their benefit contribution amounts and noted multiple instances where we could not
       obtain adequate documentation for these two sample items.

       Recommendations:
       We recommend that FLETC:
       •	 Ensure that staff is aware of FEGLI coverage eligibility and provide periodic training on the
          necessary requirements.
       •	 Maintain all benefit forms in an accessible place to ensure that benefit forms are available
          upon request and that the employee’s elections are up to date.




                                                  37

                                                                                              Section V
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


V.     UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES (USCIS)

USCIS – FMC 12-01 – Inadequate Policies and Procedures over the Review of Personnel Actions
(NFR No. USCIS 12-01)

       During the walkthrough over the processing of SF-52 forms, KPMG noted that prior to May 1,
       2012, the same individual could request and authorize the personnel actions. As such, KPMG
       determined that prior to May 1, 2012, USCIS did not have proper segregation of duties in place
       over the processing of SF-52s.

       Recommendations:
       We recommend that USCIS:
       •	 Human Resources Operations Center (HROC) continues to monitor the status of Electronic
          System for Personnel (ESP) roles and responsibilities. The Systems Team should conduct a
          quarterly review with its customers (as already highlighted in the updated SOP) to ensure
          accuracy of roles and thus comply with the requirement to separate roles within ESP.
       •	 The Quality Team within HROC should conduct periodic internal audits to ensure accuracy
          and completeness of the corrective action.

USCIS – FMC 12-02 – Insufficient Reconciliation Between the Purchase Request Information
System (PRISM) and Federal Financial Management System (FFMS) (NFR No. USCIS 12-02)

       USCIS did not sufficiently address the risk that obligation data from PRISM is not recorded
       timely into FFMS for the period from October 1, 2011 – May 31, 2012. USCIS performed a
       reconciliation of data from USASpending.gov to FFMS during this period, however we identified
       that this process causes USCIS to inadvertently rely on the transfer of information from Federal
       Procurement Data System – Next Generation to USASpending.gov. USCIS did not implement
       other procedures to assess the completeness and accuracy of the data transfer from Federal
       Procurement Data System – Next Generation to USASpending.gov.

       We noted that USCIS performed a review of open commitments which partially mitigates the
       condition noted above. However, the review was not performed regularly (e.g., quarterly), and is
       not formally documented with management review and approval. As of June 30, 2012, USCIS
       had performed the open commitments review twice: once in February and once in May.

       We also noted that USCIS retroactively reconciled PRISM to FFMS for the period October 1,
       2011 – May 31, 2012 on June 5, 2012.

       Recommendation:
       We recommend that USCIS continue to perform a monthly reconciliation of PRISM to FFMS as
       was started in June 2012.




                                                  38

                                                                                                Section V
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


USCIS – FMC 12-03 – Potential Non-Compliance with Office of Government Ethics (OGE) Form
450 Filing Requirements (NFR No. USCIS 12-03)

       USCIS did not obtain and review all of the required OGE Form 450 Confidential Financial
       Disclosure Report forms from its employees by the February 15, 2012, deadline. This deadline is
       imposed by the OGE.

       Recommendation:
       We recommend that USCIS ensure that the OGE Form 450 policies and procedures are
       understood and implemented.

USCIS – FMC 12-04 – USCIS Contracting Officers Disregarded DHS Invoice Approval
Requirements (NFR No. USCIS 12-04)

       During FY 2012, USCIS identified that contracting officers (COs) within the Contract
       Administration Division provided Contracting Specialists with pre-signed labels for use in
       approving invoices on cost-type contracts where CO approval is required.

       The pre-signed labels were typically used by Contracting Specialists when there was uncertainty
       as to whether an invoice for a cost-type contract would be approved in a timely manner (e.g.
       when the CO was out of the office).

      Recommendation:
      There are no recommendations as corrective action was taken during FY 2012.

USCIS – FMC 12-05 – Insufficient Review of Journal Entries (NFR No. USCIS 12-05)

       KPMG selected 45 manual journal entries (JEs) for control and substantive testwork, and noted
       the following errors:

       •	 General Journal # 15099548: USCIS recorded the reclassification of balances within Treasury
          Account Fund Symbols (TAFS) 705106 using the incorrect percentages to allocate the funds
          between trading partners 16, 49 and 70. As a result of the error, trading partner balances
          totaling approximately $10 million were misstated within the following Standard General
          Ledger (SGL) accounts:
          - 2985, Liability for Non-Entity Assets Not Reported on the Statement of Custodial Activity;
          - 5993, Offset to Non-Entity Collections - Statement of Changes in Net Position; and
          - 5994, Offset to Non-Entity Accrued Collections - Statement of Changes in Net Position.

       KPMG noted that the overall SGL balances were correct, but that the individual trading partner
       balances within the SGL account were misstated.

       Recommendations:
       We recommend that USCIS:
       •	 Automate the calculation of the trading partner allocation to reduce the potential for using the
          incorrect allocation percentages.




                                                   39

                                                                                                Section V
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


       •	 Periodically check the allocation balance to ensure the recorded allocation by trading partner
          is consistent with the required allocation.

USCIS – FMC 12-06 – Inaccurate Data in the Claims 3, Claims 4, and Marriage Fraud Amendment
Systems (NFR No. USCIS 12-06)

       KPMG conducted testwork over the FY 2012 third and fourth quarter list-to-floor audits and
       noted the following:
       •	 In the third quarter of the audit, 179 of the 680 samples, or 26.3%, were determined to be not
           pending by USCIS. In the fourth quarter of the audit, 207 of the 680 samples, or 30.4%, were
           determined to be not pending by USCIS. These error rates are indicative of a deficiency in
           internal control in the application adjudication process and exist on USCIS’ largest
           application tracking systems: Claims 3 (C3), Claims 4 and Marriage Fraud Amendment
           Systems (MFAS).
       •	 The deferred revenue quarterly sampling and verification process identifies discrepancies in
           the status of applications where errors between the system query results and the hard copy
           application exist; however, the faulty data was not corrected within the systems.

      Recommendation:
      We recommend that USCIS focus on the controls and reporting functions incorporated in
      Electronic Immigration System to ensure the new application tracking system will allow for the
      direct reporting of the deferred revenue. The controls over the application status should
      eventually allow USCIS to retire their legacy tracking systems and replace the current estimation
      process.

USCIS – FMC 12-07 – Insufficient Reivew of Deposit Transactions (NFR No. USCIS 12-07)

      During testwork over a sample of 45 deposits, we noted that for 5 transactions, the Burlington
      Finance Center recorded a portion of the deposit amount to the incorrect item type. In each
      instance, the amount of the entry was correct and the item types (incorrect and correct) were
      recorded within the correct TAFS. As such, no financial statement misstatement was identified as
      a result of the errors.

      Recommendation:
      We recommend that USCIS and ICE evaluate the errors made and implement the controls that are
      deemed necessary for this process, possibly including an automation of this process where
      possible.

USCIS – FMC 12-08 – Inadequate Monitoring of Fee Table Changes in Deferred Revenue Estimate
Process (NFR No. USCIS 12-08)

       KPMG performed testwork over the third quarter list-to-floor samples and noted the following:
       •	 The original fee amount per the system did not agree to the historical fee table for 260 of the
          680 samples. Of the errors noted, 186 samples were C3 applications and 74 were MFAS
          applications.




                                                   40

                                                                                                Section V
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


       •	 The current fee table became effective on November 23, 2010. The C3 and MFAS systems
          were not properly coded to pull the new fee amounts for applications with receipt dates after
          November 23, 2010.

      Recommendation:
      There are no recommendations as USCIS remediated the deficiency in the current year, and we
      performed testwork over the remediation, noting no exceptions.

USCIS – FMC 12-09 – Deficiencies in the Recording of Internal Use Software (NFR No. USCIS 12­
09)

      As a result of USCIS’s review of Office of Transformation Coordination and Office of the Chief
      Information Officer costs, USCIS recorded the following corrective adjustments to the internal
      use software (IUS) balance:
      •	 USCIS recorded prior year adjustments to IUS of $30.1 million.
      •	 USCIS identified ten new IUS projects for which costs were previously recorded as expenses.
         Three of the ten projects were initiated in prior years.

      During testwork over the Office of Transportation Coordination projects as of June 30, 2012 and
      September 30, 2012, we noted that USCIS incorrectly capitalized Electronic Immigration System
      training and data conversion costs.

      During testwork over a sample of Office of the Chief Information Officer project costs as of
      September 30, 2012, we noted the following:
      •	 USCIS incorrectly capitalized Office of the Chief Information Officer training and
         maintenance costs.
      •	 USCIS was unable to provide supporting documentation for capitalized costs.

       Recommendation:
       We recommend that the USCIS OCFO, Office of Transformation Coordination, Office of
       Information Technology, USCIS Contracting and other involved program offices continue to
       work together to develop and implement effective policies and procedures to ensure the accurate
       and timely identification and reporting of software developments cost.

USCIS – FMC 12-10 – Deficiencies in the Timely Recording of Capital Equipment (NFR No. USCIS
12-10)

       We reviewed the PP&E activity recorded to the GL during FY 2012 and noted that USCIS
       recorded prior period equipment costs as additions for 46 items in the current year.

      In addition, we selected a statistical sample of PP&E transactions related to asset additions and
      disposals, and noted the following:
      •	 USCIS disposed of equipment in the second quarter of FY 2011 but did not record the
          transaction in the GL until the second quarter of FY 2012.
      •	 USCIS was unable to provide supporting documentation for two capitalized equipment
          additions.




                                                   41

                                                                                     Section V
                          Department of Homeland Security
                          Financial Management Comments
                                September 30, 2012


Recommendations:
We recommend that the USCIS:
•	 The OCFO, Office of Administration, OIT, and USCIS Contracting continue to work together
   to develop and implement effective policies and procedures that ensure PP&E acquisitions
   are processed in a standardized method.
•	 Roles and responsibilities for ordering, purchasing, delivery, receiving, and establishing
   accountability should be addressed.
•	 Additionally, these procedures should ensure the responsible offices provide accurate
   documentation to the appropriate personnel for timely and accurate data entry into the asset
   management system and financial management system.




                                          42

                                                                                               Section VI
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


VI.    IMMIGRATION AND CUSTOMS ENFORCEMENT (ICE)

ICE – FMC 12-01 – Inadequate Controls over New Hire Ethics Briefings (NFR No. ICE 12-01)

       The ICE Ethics Office is charged with the oversight of ethics training for all ICE employees. ICE
       new hires are required to complete new hire ethics training within 90 days of their Entrance on
       Duty date. This training is delivered online through ICE’s Virtual University training system.

       During our testwork over new hire ethics training, we noted that five out of a sample of 45 ICE
       employees hired between October 1, 2011, and June 30, 2012, did not complete the required
       ethics training within 90 days of their Entrance on Duty date.

       Recommendation:
       We recommend that the ICE Ethics Office continue to use email reminders and the escalation
       procedures that were put into place in February 2012; whereby, the Chiefs of Staff in the offices
       of employees who have yet to complete the training are notified.

ICE – FMC 12-02 – Student Exchange Visitor Information System Data not Reconciled to FFMS
Data (NFR No. ICE 12-02)

       ICE collects fees from applicants for the Student Exchange Visitor Program pursuant to the
       Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (Public Law 104-208).
       ICE records revenue in FFMS – the financial system – for the transactions, and maintains
       applicant and visitor information in the Student Exchange Visitor Information System. Student
       Exchange Visitor Information System does not interface with FFMS.

       Prior to May 2012, policies and procedures were not in place at ICE to reconcile cash collections
       for Student Exchange Visitor Program to the corresponding applicant information in Student
       Exchange Visitor Information System.

       Recommendation:
       We recommend that ICE continue to use the reconciliation process that was implemented in May
       2012. Beginning in May 2012, the ICE OFM and the Burlington Finance Center began to perform
       reconciliation between the FFMS and the I-901 Fee Collection System at the detail level. The
       reconciliation performed at the Burlington Finance Center is a part of the three-way match
       between the Fee Collection System, the Student and Exchange Visitor Information System, and
       FFMS and gives the ability to drill down from a deposit recorded in FFMS to the actual student
       information housed in the Student and Exchange Visitor Information System. The Burlington
       Finance Center has the ability to perform this reconciliation daily and consolidates at the end of
       the month for Management’s sign-off.




                                                   43

                                                                                                 Section VI
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


ICE – FMC 12-03 – GAO Checklist Review (NFR No. ICE 12-07)

       We noted that the GAO checklist review was not performed accurately as of March 3, 2012.
       Specifically, we noted:
       •	 Four instances where ICE OFM indicated “Yes” for the existence of information in the
          financial statements when the balance or information is not reported or applicable to the
          Annual Financial Report.

       One instance where ICE indicated “N/A” for information in the financial statements when ICE’s
       operations support the reporting of certain balances.

        Recommendation:
       We recommend that ICE improve procedures to ensure that the GAO checklist is an effective
       control to assess the accuracy of accounting policies.

ICE – FMC 12-04 – Untimely Review of OGE Form 450s (NFR No. ICE 12-08)

       We noted during interim testwork over entity level controls at ICE that 32 out of 45 OGE Form
       450s selected for testwork were certified by the ethics official greater than 60 days after the
       submission of the form. These forms were all reviewed by a supervisor within 60 days; however
       the supervisors do not represent “designees” of the ethics official for the purpose of certifying the
       form. All forms were certified by the Ethics Office subsequent to the 60 day window.

       Recommendation:
       We recommend that the ICE Ethics Office make the supervisory reviewers “designees” for the
       purpose of certification in order to comply with the OGE requirements, or apply additional
       resources so that the ethics officials review the forms on-time.

ICE – FMC 12-05 –Ineffective Internal Controls over Leave Audit Process (NFR No. ICE 12-09)

       During the review of the corrective action plan of the prior-year finding related to leave audits,
       we noted that 1,118 Annual Leave Errors from the Period 8 Report had not been resolved by the
       Period 13 Report, ten weeks later.

       ICE’s Office of Human Capital implemented a new process as of July 2012 to reconcile the leave
       amounts recorded in WEBTA to leave amounts reported by NFC. We noted that following the
       introduction of this new process, leave errors decreased to 185.

       Recommendations:
       We recommend that the ICE Office of Human Capital:
       •	 Ensure that all employees responsible for timekeeping are appropriately trained in all aspects
          of the time and attendance system.
       •	 Analyze leave error reports to identify any common causes related to errors in the
          timekeeping process.
       •	 Continue to review and report to program offices on timekeeping errors to ensure correction
          no later than two pay periods from the date of official notification.




                                                    44

                                                                                             Section VI
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


       •	 Develop new quick reference guidance to supplement the currently used guidance which will
          educate timekeepers on the newly implemented bi-directional feed process and reinforce the
          actions required in the leave audit process.
       •	 Implement the “Timekeeping and Attendance Directive” that establishes responsibilities for
          all managers, supervisors and employees involved in the timekeeping process and sets
          internal controls for leave errors.

ICE – FMC 12-06 – FFMS to PRISM Reconciliation (NFR No. ICE 12-10)

       We noted during our tests of design and implementation of the reconciliation of FFMS and
       PRISM that policies and procedures are in place for the reconciliation, however ICE has not
       adequately documented the remediation of variances at the document number level identified
       during the reconciliation. Additionally, there was a lack of supervisory review of the
       reconciliation.

       Recommendations:
       We recommend that ICE:
       •	 Develop and implement a supervisory review and approval process for the reconciliation.
       •	 Develop and implement a process for retaining documentation from the reconciliation that
          shows the resolution for reconciling items at the document level.

ICE – FMC 12-07 – Subject to Availability of Funding Agreements not Obligated in FFMS at
Outset of Agreement (NFR No. ICE 12-11)

       Enforcement and Removal Operations does not record a dollar value for obligations in FFMS for
       Enforcement and Removal Operations agreements including the “Subject to Availability of
       Funds” (SAF) clause prior to incurring cost under these. Enforcement and Removal Operations
       occasionally incurs Prompt Payment Interest because of the timing lag between when it receives
       an invoice and when it has the funds available in FFMS to pay the invoice.

       We inquired of ICE about remediation action that had occurred to address prior year NFR ICE­
       11-16. According to ICE, the Budget and Program Performance (OBPP) has implemented
       guidelines to reduce reliance on the SAF clause in ERO agreements.

       Recommendations:
       We recommend that ICE:
       •	 Continue to implement the guidance issued by OBPP in August 2012 to Program Offices
          regarding the proper use of the SAF clause.
       •	 Fund detention bed contracts in a manner such that the use of the SAF clause is not required
          at the start of the fiscal year.
       •	 Continue the coordinated multi-office review of obligations that are not recorded in a timely
          manner.
       •	 Structure the period of performances in ERO agreements so that they are staggered
          throughout the year in order to reduce reliance on the SAF clause.
       •	 Continue to use the revised procedures implemented by the Office of Acquisitions to ensure
          that task order periods of performances do not exceed the funding level on the individual task
          orders.


                                                  45

                                                                                               Section VI
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012



ICE – FMC 12-08 – Accounts Payable Estimation Methdology does not Contain Procedures for
Considering Improvements to the Methdology (NFR No. ICE 12-17)

       During FY 2012, we noted that ICE OFM was limiting the accounts payable estimate in certain
       BOCs and program codes to the total amounts that were obligated in those specific combinations.
       This limitation reduces the estimate amount without consideration for whether the reduction is
       necessary or meaningful to the estimate on the whole.

       Recommendation:
       We recommend that ICE OFM further refine the accrual process to determine and record an
       accrual for the highest allowable attribute posting in FFMS so that an adequate accounts payable
       accrual is recorded each month.

ICE – FMC 12-09 – Inadequate Policies and Procedures for PP&E Accruals (NFR No. ICE 12-21)

       In a sample of three real property additions, KPMG noted that one accrual was calculated using
       an outdated obligation amount. Per review of obligating documents, KPMG determined that the
       original obligation amount had been amended in August 2012 to reduce the obligation. However,
       OFM calculated and recorded the year-end accrual for the project using the original obligation
       amount.

       Recommendation:
       We recommend that:
       •	 All pertinent ICE offices should collaborate to ensure precise accruals are recorded in the
          financial system by improving the collection and validation of data.
       •	 ICE train stakeholders to validate the data at each stage within the process in order to reduce
          the risk of anomalies.




                                                   46

                                                                                             Section VII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


VII.   INTELLIGENCE & ANALYSIS (I&A) AND OPERATIONS (OPS) (MGA)

MGA – FMC 12-01 – UDO Validity (NFR No. MGA 12-01)

       We selected a statistical sample of 17 items from the population of UDOs as of October 1, 2011.
       Based on our review of these items, we noted that for 5 of the 17 UDOs tested, the
       contract/agreement POP had ended and the contract/agreement was no longer valid; however, the
       unused balances for these items were not properly de-obligated. Additionally, we noted that for 1
       of the 17 UDOs tested, the amount of the original obligation recorded was less than the
       supporting documentation, resulting in an understatement of the UDO balance.

       We selected a statistical sample of 12 items from the population of UDOs as of August 31, 2012.
       Based on our review of these items, we noted that for 4 of 12 UDOs tested, the
       contract/agreement POP had ended and the contract/agreement was no longer valid; however, the
       unused balances were not properly de-obligated.

       As a result of the August 31, 2012 errors, we performed testwork over UDOs as of September 30,
       2012. We obtained the population of UDOs as of September 30, 2012, and based on the noted
       GL date, separated the population into stale (no FY 2012 activity) and non-stale (with FY 2012
       activity) UDOs. We removed the errors identified in our beginning balance testwork and August
       31, 2012 testwork, and selected a statistical sample of 28 items. Based on our review of these
       items, we noted that for 12 of 28 UDOs tested, the contract/agreement POP had ended and the
       contract/agreement was no longer valid; however, the unused balances were not properly de-
       obligated.

       As a result of the September 30, 2012 errors, we removed all items selected in our September 30,
       2012 sample from the population of stale UDOs and provided this to MGA to clean-up for re­
       testing. MGA reviewed the population and determined which UDOs they considered valid and
       which were invalid. We selected a statistical sample of 3 items from the population of stale
       UDOs I&A considers valid and a statistical sample of 3 items from the population of stale UDOs
       OPS considers valid. Based on our review of these items, we noted for 2 of the 3 UDOs tested
       for I&A, the contract/agreement POP had ended and the contract/agreement was no longer valid;
       however, the unused balances were not properly de-obligated. We noted all 3 UDOs tested for
       OPS were valid.

       Recommendations:
       We recommend that MGA:
       •	 Work with FLETC and the Office of Procurement Operations to ensure that an adequate
          review of obligated balances is performed and that unused balances are properly de-obligated.
       •	 Work with FLETC and Office of Procurement Operations to enhance the existing system of
          monitoring contracts with periods of performance that are set to expire.




                                                  47

                                                                                           Section VII
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2012


MGA – FMC 12-02 – Deficiencies in the Payroll Process (NFR No. MGA 12-03)

       During our payroll testwork, we identified three employees for which the MGA's servicing
       human capital office, the DHS Office of Human Capital Officer, was unable to find the adequate
       documentation (FEGLI and FEHB election forms) and in two of those instances we were unable
       to re-calculate their benefit contribution amounts.

       Recommendation:
       We recommend that MGA coordinate with Office of Human Capital Officer, in maintaining
       documentation for each employee in order to be able to obtain the documentation upon request
       and to verify changes made to FEGLI and FEHB elections are properly documented and agreed
       to the employee’s SF-50.




                                                 48

                                                                                            Section VIII
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


VIII.   MANAGEMENT DIRECTORATE (MGT)

MGT – FMC 12-01 – Inadequate Internal Controls over PP&E (NFR No. MGT 12-01)

        During FY 2012, the Management Directorate was in the process of implementing an asset
        management system with robust processes and controls. As such, MGT continues to rely on
        manual processes to track and report PP&E. Although MGT has piloted inventory procedures at
        program offices, it did not have procedures in place for a comprehensive inventory in FY 2012.

        During interim testwork over PP&E, we noted that:
           •	 One FY 2012 real property addition included capitalized costs from FY 2011.
           •	 One personal property addition did not properly include all capitalized costs, which
                resulted in an understatement of capitalized assets. For the same item, the invoices to
                support the addition included non-capitalized technical support costs, which resulted in
                an overstatement of capitalized assets.
           •	 One personal property item was capitalized in FY 2012, but receiving tickets showed the
                property was received in FY 2011.

        Recommendations:
        We recommend that MGT:
        •	 Design, implement, and document additional policies, procedures, and internal controls that
           will help ensure the PP&E recorded in the asset management system exists, that it is complete
           and accurate, and that it is properly valued.
        •	 Provide Sunflower Asset Management System (SAMS) training to the property management
           custodians.




                                                   49

                                                                                              Section IX
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


IX.    NATIONAL PROTECTION AND PROGRAMS DIRECTORATE (NPPD)

NPPD – FMC 12-01 – Inadequate PRISM to FFMS Reconciliation (NFR No. NPPD 12-01)

       NPPD uses PRISM – a procurement module outside of FFMS – to initiate obligations. Since
       PRISM does not interface with the GL system, FFMS, NPPD financial management personnel
       manually record obligations from PRISM into FFMS.

       During our test of design and implementation of NPPD’s FFMS to PRISM reconciliation, we
       noted that policies and procedures are in place for the reconciliation process; however NPPD did
       not perform the reconciliation with a regular frequency during FY 2012. As of the date of our
       walkthrough with NPPD on July 19, 2012, the FFMS to PRISM reconciliation was last performed
       in January 2012.

       Recommendation:
       We recommend that NPPD perform the FFMS to PRISM reconciliation with regular frequency.

NPPD – FMC 12-02 – Federal Protective Services (FPS) Accounts Receivable Allowance (NFR No.
NPPD 12-03)

       FPS is responsible for security of government facilities. Through different methods, FPS bills
       customers every month for their portion of the security cost. When a payment is not received, an
       accounts receivable balance is recorded in the GL and a review takes place to identify and attempt
       to collect on these charges.

      During our walkthrough over the March 31, 2012, accounts receivable review process, we noted
      the following:
      •	 Approximately 25 percent of the FPS Accounts Receivable balance, primarily Federal, was
          over 180 days uncollected.
      •	 Open accounts receivable balances ranged from 1 day to 2,298 days uncollected.
      •	 FPS does not have policies and procedures in place to identify, review, and resolve
          uncollected amounts related to Federal accounts receivable.

       Recommendation:
       We recommend that NPPD implement policies and procedures to identify, review, and resolve
       uncollected amounts related to Federal accounts receivable.

NPPD – FMC 12-03 –UCOs Not Recorded for Recurring Security Agreements (NFR No. NPPD 12­
05)

       NPPD FPS does not record UCOs for recurring agreements because these types of agreements are
       performed within the span of the fiscal year (i.e. annual agreements) and are billed on a 1/12th
       basis whereby 1/12th of the total agreement amount is billed each month.

       Recommendation:
       We recommend that NPPD record and track unfilled customer orders for all security work
       agreements.



                                                  50

                                                                                              Section IX
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2012


NPPD – FMC 12-04 – FPS Headquarters Security Billing Review (NFR No. NPPD 12-06)

      During our walkthrough over the review of the FPS headquarters security billings file, we noted
      that the current review process is not properly designed to identify and correct misstatements of
      inaccurate billings.

      During our testwork over a sample of 19 security revenue transactions, we identified five
      exceptions. Five FY 2012 sample amounts contained transactions related to FY 2011 revenue
      adjustments. While preparing and reviewing the monthly security charges, these amounts were
      not properly excluded from FY 2012 revenue. Specifically, three of the five sample amounts
      related to an increase in revenue, while the other two sample amounts related to a decrease in
      revenue.

      Recommendation:
      We recommend that NPPD FPS strengthen its current procedures or develop and implement new
      procedures to apply billing adjustments to revenue balances in the proper period.

NPPD – FMC 12-05 – Untimely De-obligation of UDO balances (NFR No. NPPD 12-07)

      NPPD lacks effective controls over the verification and validation of UDOs which resulted in
      substantive errors. The verification and validation reviews performed by the financial managers
      indicate reliance on responses from field office personnel to determine the validity of open
      obligations which at times are inaccurate, do not indicate a rigorous review of the open
      obligations, or do not contain sufficient information for the financial managers to make an
      informed decision about the balance.

      We selected a statistical sample of 40 items from the population of UDOs as of September 30,
      2012. Based on our review, we noted that for 3 of the 40 UDOs tested, the contract/agreement
      POP had ended and the contract/agreement was no longer valid; however, the unused balances
      had not been properly de-obligated.

      Recommendations:
      We recommend that NPPD:
      •	 Strengthen its verification and validation review of UDOs to adequately consider whether
         balances should be de-obligated.
      •	 Improve communication between financial management and field office personnel during the
         review so that the final determination for each UDO balance is clearly documented.

NPPD – FMC 12-06 – Accounts Payable Estimate Methodology (NFR No. NPPD 12-12)

      NPPD’s accounts payable estimation review – as performed by its service provider, ICE OFM –
      is not designed effectively to ensure that the estimate is accurately recorded. Specifically, we
      noted during FY 2012 that ICE OFM was limiting the accounts payable estimate in certain BOCs
      and Program Codes to the total amounts that were obligated according to the obligation balances
      in those specific combinations. This limitation reduces the estimate amount without
      consideration for whether the reduction is necessary or meaningful to the estimate on the whole.




                                                  51

                                                                                      Section IX
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2012


Recommendation:
We recommend that NPPD and ICE OFM further refine the accrual process to determine and
accrue-for the highest allowable attribute posting in FFMS so that an adequate accounts payable
accrual is recorded each month.




                                           52

                                                                                            Section X
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2012


X.    OFFICE OF HEALTH AFFAIRS (OHA)

OHA – FMC 12-01 – Bioshield Accounts Payable Accrual (NFR No. OHA 12-01)

      OHA records obligations (in the amount of funds to be transferred to Health and Human Services
      (HHS) and disbursements (in the amount of the payments made by HHS to vendors) in its own
      financial statements. At the end of each month, OHA records an accrual to cover the portion of
      expenses incurred by HHS that have not yet been recorded against the BioShield obligation by
      OHA.

      However, OHA did not have controls in place throughout FY 2012 to link expenses (i.e., HHS
      IPACs) to the BioShield obligation in an accurate and timely manner. In addition, we noted that
      the FY 2011 accrual was overstated, resulting in an understatement of current year expenses.

      Recommendations:
      We recommend that OHA:
      •	 Continue to utilize the revised spreadsheet to calculate the BioShield accrual, which will
         streamline the overall process and reduce the amount of manual data input.
      •	 Continue to reconcile the detailed data provided by HHS to the amounts obligated in OHA’s
         financial system on a monthly basis.

OHA – FMC 12-02 – Contract Management (NFR No. OHA 12-02)

      OHA’s review of outstanding UDO balances is not operating effectively to ensure obligations are
      properly modified, extended or de-obligated timely. Specifically we noted one BioShield
      contract selected for testwork, which was approximately $143,926,000, had an expired POP.

      Recommendation:
      We recommend that OHA review the POP for obligations to ensure the POP is properly updated
      and/or modified as needed.




                                                 53

                                                                                              Section XI
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


XI.    SCIENCE AND TECHNOLOGY DIRECTORATE (S&T)

S&T – FMC 12-01 – FFMS to PRISM Reconciliation (NFR No. S&T 12-01)

       S&T uses PRISM – a procurement module outside of FFMS – to initiate obligations. Since
       PRISM does not interface with the GL system, FFMS, S&T financial management personnel
       manually record obligations from PRISM into FFMS. As a result, there is a risk that obligations
       initiated in PRISM are not completely or accurately recorded in FFMS.

       S&T does not have policies and procedures in place to reconcile obligation information from
       PRISM to FFMS.

       Recommendation:
       We recommend that S&T develop and implement policies and procedures to reconcile obligation
       data between FFMS and PRISM.

S&T – FMC 12-02 – Inadequate Controls and Procedures over Recording and Reporting Personal
Property (NFR No. S&T 12-02)

       S&T oversees six national research laboratories and contracts with outside entities to manage
       certain functions of the laboratories. Contractors purchase laboratory equipment and are
       reimbursed by S&T for the expense. S&T reports the equipment as PP&E based on its
       capitalization requirements.

       During the walkthrough of the S&T property process, we noted that there is a lack of supervisory
       review controls to verify the accuracy of the information that is recorded into SAMS. S&T
       performs occasional inspections, but there is no consistent review of information at the point at
       which it is recorded into SAMS.

       During interim audit procedures over personal property, we noted that S&T recorded the addition
       of an item of scientific equipment in FY 2012 that was received in FY 2011. The equipment had
       been purchased by the contractor for National Biodefense Analysis and Countermeasures Center,
       who was subsequently reimbursed by S&T.

       Recommendation:
       We recommend that S&T develop and implement internal controls to identify and record
       additions to PP&E in a timely manner and that the procedures include consideration for S&T
       assets purchased or held by contractors.

S&T – FMC 12-03 – Inadequate Internal Controls over Reporting of Construction In Progress
(CIP) and Buildings (NFR No. S&T 12-03)

       S&T’s Office of National Laboratories contracts with FLETC to construct buildings, structures
       and leasehold improvements. Invoices are submitted along with a summary checklist which
       certifies that (1) only capitalizable PP&E costs have been captured, (2) contract identification
       numbers have been provided, (3) supporting documentation such as invoices have been provided
       or maintained for audit and review, (4) both direct and indirect PP&E costs have been captured
       for the quarter, (5) contract modifications have been included, and (6) S&T asset management


                                                  54

                                                                                               Section XI
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


      personnel have been informed of any contract close-outs. The checklist is prepared by the project
      manager and reviewed by S&T asset management personnel and S&T Financial Operations. ICE
      OFM provides financial reporting services for S&T and records S&T’s asset additions.

      During testwork over a sample of eight real property additions as of June 30, 2012, for all sample
      items, we noted that the CIP checklist was not reviewed and approved by all required supervisors
      until after the addition was recorded into GL by ICE OFM.

      Recommendation:
      We recommend that S&T strengthen its internal controls to identify and record additions to
      construction in progress and buildings. We recommend that S&T consistently use the CIP
      checklist to track and record construction costs and that the supervisory review of the checklist
      occurs before entry into the GL.

S&T – FMC 12-04 – Inadequate Documentation of Inventory Procedures (NFR No. S&T 12-04)

      S&T performs an annual inventory of all capitalizable and accountable personal property. S&T
      Office of the Chief Administrative Officer is responsible for issuing guidance related to the
      annual inventory and monitoring and reporting the results. Property custodians are responsible
      for the day-to-day accountability for assets and, in order to ensure segregation of duties, are
      prohibited from performing the inventory for assets for which they are responsible.

      We reviewed seven inventory certification letters for S&T and noted that the documentation
      provided for five sites was not adequate to determine if there was segregation of duties as
      required by the DHS Personal Property Asset Management Manual.

      Recommendation:
      We recommend that S&T implement policies and procedures to enforce and document adequate
      segregation of duties during the annual inventory.

S&T – FMC 12-05 – Inadequate UCO Review (NFR No. S&T 12-05)

      During our testwork over the September 30, 2012 UCO balances, we selected 15 open balances
      and noted the following:
      •	 One sample item was a duplicate agreement for $4.8 million that was input into FFMS in
          May 2012 and not identified to be removed until after September 30, 2012.
      •	 One sample item was a reimbursable agreement in which the customer agency provided S&T
          with two year funds (09/10). At the end of FY 2012, the carryover balance was not properly
          reduced, and as a result, the amount obligated on the corresponding UDO exceeded the UCO.

      Recommendations:
      We recommend that S&T:
      •	 Strengthen its quarterly UCO review procedures to adequately review and adjust UCO
         balances with customer agencies.
      •	 Improve communication between financial management and field office personnel so that the
         conclusions about each balance are clearly documented.




                                                  55

                                                                                               Section XI
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


S&T – FMC 12-06 – Inadequate Policies and Procedures for Identifying Heritage Assets (NFR No.
S&T 12-06)

       We determined that controls are not properly designed to identify and report heritage assets.

       Recommendations:
       We recommend that S&T:
           •	 Strengthen its policies and procedures related to the review for heritage assets.
           •	 Improve communication between financial managers and field office personnel to
              timely identify and report heritage assets




                                                   56

                                                                                              Section XII
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


XII.   TRANSPORTATION SECURITY ADMINISTRATION (TSA)

TSA – FMC 12-01 – Asset Exchanges (NFR No. TSA 12-01)

       TSA lacks formalized documented policies and procedures to ensure that property exchanges
       maximize value to the government and conform to the appropriate property management laws,
       regulations, and policies. Exchanges of goods for services are generally not allowable under the
       property management regulations. Specifically, we noted policies do not exist to:
       •	 Require the review and approval of the Property Management Division (PMD) for any future
           exchange sales and property disposals.
       •	 Require senior executive leadership within the Office of Acquisitions and the owning
           organization to review and approve the business case for the exchange of equipment or other
           non-cash transactions.
       •	 Require PMD to communicate the requirements and policy for exchange sales to all TSA
           organizations and contracting professionals with the Office of Acquisitions.

       Recommendations:
       We recommend TSA to take the following corrective actions:
       •	 Require leadership within the Office of Acquisitions and the owning organization to review
          the business case for the exchange sale for any contract that involves the exchange of
          equipment.
       •	 The Office of Acquisitions and PMD develop process to identify exchange sale for
          surveillance and reporting.
       •	 PMD update the Personal Property Management Manual and include exchange sale
          transaction guidance.
       •	 PMD communicate the requirements and policy for exchange sales to all TSA organizations
          and contracting professionals with the Office of Acquisitions.
       •	 The Office of Acquisitions issue a data call to all COs to determine if other similar exchange
          sales were processed in FY 2011 and FY 2012. Review and verify that any exchange sales
          that were processed were properly recorded and reported.
       •	 Financial Management Division provide acquisition cost, net book value, and remaining
          useful life for assets identified for exchange sale and record the appropriate accounting entry
          to remove the assets from TSA's ledger.

 TSA – FMC 12-02 – Non-Compliance with the Debt Collection Improvement Act of 1996 (DCIA)
(NFR No. TSA 12-04)

       In FY 2011, TSA was not in compliance with DCIA. During FY 2011, TSA revised its internal
       SOP over ensuring compliance with DCIA. Although this SOP has been adopted and approved,
       the SOP is not properly designed to ensure full compliance with the provisions of DCIA for FY
       2012. The SOP indicates that referrals are only made on a quarterly basis. We further note that
       the policy lacks adequate management review controls over the accounts receivable payments
       database to verify completeness over fees identified as outstanding and eligible for referral.

       Specifically we noted the following instances of non-compliance:
       •	 For 3 of 59 sample items selected, demand letters were not sent to the debtor timely.



                                                   57

                                                                                                Section XII
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


       •	 For 5 of 59 sample items selected, TSA did not refer eligible, outstanding debt to Treasury
          within 180 days.

       Recommendations:
       We recommend that TSA’s:
       •	 Accounting and Revenue review and edit the SOP to indicate that Passenger Fee and Air
          Carrier Fee referrals to Treasury be conducted on a monthly basis by the Office of Revenue
          to ensure that the SOP is properly designed to ensure full compliance with the Federal
          collection guidelines.
       •	 Accounting and Revenue review and edit the SOP to document management controls over
          establishment of Passenger Fee and Air Carrier Fee accounts receivable to review and verify
          completeness over fees identified as outstanding.

TSA – FMC 12-03 – Revenue Fee Classification (NFR No. TSA 12 -05)

       During our testwork over revenue, we noted TSA lacks preventative controls to ensure all
       aviation fees are timely classified to the correct fee type – Aviation Security Infrastructure Fees
       (i.e. Carrier Fees) or September 11th Security Fees (Passenger Fees) at the time of initial deposit.

       Specifically, we noted three instances in which TSA made corrections, in the subsequent quarter,
       to the March daily deposit report to reclassify two fees from passenger to carrier and one fee from
       carrier to passenger.

       Recommendations:
        We recommend that TSA’s:
       •	 Revenue Division continue to execute the series of existing controls already in place to
          identify the correct classification revenue.
       •	 Revenue Division continue with communication, education, and industry outreach to all
          aviation customers to further emphasize the importance of continually providing proper
          remittance advice.
       •	 Financial Management Division Accounting Branch review the fee classification recorded via
          JV (accounts receivable accrual and collections in-transit).

TSA – FMC 12-04 – Review of Journal Vouchers (NFR No. TSA 12-06)

       Controls related to journal voucher (JV) reviews were not fully effective during the current year.
       Specifically we noted:
       •	 One sample item that was recorded for the incorrect amount.
       •	 One sample item that was recorded to correct an entry that was reviewed, approved, and
          posted in error in a prior month.

       Recommendations:
       We recommend TSA:
       •	 Ensure that JV Preparers and Reviewers take the yearly JV Training which will include JV
          preparation, lessons learned and the requirements for review and approval.
       •	 Branch Chiefs train their staff on all applicable accounting standards and procedures for their
          areas of responsibility.



                                                    58

                                                                                             Section XII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


TSA – FMC 12-05 – Employee Record Management and Compliance with Human Resources
Related Laws (NFR No. TSA 12-07)

       TSA lacks documented policies and procedures related to the review and maintenance of
       employee personnel folders to ensure completeness and accuracy of employee benefit election
       documentation and processing. In addition, ensure that employee benefits are properly supported
       by available documentation within the employee personnel files.

       Specifically we noted the following conditions related to a lack of documentation:
       •	 Two instances in which the SF-2817 (FEGLI) form was not included in the employee
          personnel folders.
       •	 One instance in which the FEGLI elections per the Leave and Earnings Statement did not
          agree to the coverage elections selected by the employee per the SF-2817 (FEGLI) form.
       •	 One instance in which the SF-2809 (FEHB) form evidencing the employee’s current benefits
          election was not included in the employee personnel folders.
       •	 One instance in which the current TSP election form was not included in the employee
          personnel folders.

       Recommendation:
       We recommend TSA continue to monitor the service provider to verify that all of the supporting
       documentation for benefit and TSP elections are uploaded into the Official Personnel Folder in a
       timely manner for both new hires and employee changes. This ongoing review will ensure the
       service provider is following the Federal guidelines pertaining to record keeping.

TSA – FMC 12-06 – Ineffective Controls over the Time and Attendance Process (NFR No. TSA 12­
09)

       Airports (5 Sites)
       During our FY 2012 site visits to airports, we noted that controls over time and attendance were
       not fully effective at the airports. We noted the following:

       •	 Controls over the review and approval of timesheets are not operating effectively.
          Specifically, we noted:
              •	 Lack of evidence of timely supervisor review and approval of timesheets and
                  additional supporting documentation (nine instances):
                            o	 Five of 59 instances where overtime requests were not approved prior to
                                the employee working the overtime hours
                            o	 Two of 59 instances where employee sick leave approval was not
                                properly evidenced.
                            o	 One of 59 instances where leave was taken prior to supervisor approval.
                            o	 One of 59 instances where the employee was paid for 0.5 hours of
                                unauthorized time worked.
       •	 Lack of policies and procedures to ensure consistent application of time and attendance
          review requirements at airports utilizing the Electronic Time and Attendance System.
       •	 Lack of policies and procedures to ensure completeness of listing of employees by airport.
          We noted two instances where employees charged time to WebTA in pay period 06, but were
          not included in the listing of employees provided to the auditors for pay period 06. We note



                                                  59

                                                                                               Section XII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


          that we were able to trace the employees to the population of payroll expense to ensure they
          were properly included.

      Federal Air Marshall Service (5 Sites)
      During our FY 2012 site visits to airports, we noted that controls over the review and approval of
      timesheets are not operating effectively. Specifically, we noted:
      •	 Lack of evidence of timely supervisor review and approval of timesheets and additional
          supporting documentation (eleven instances)
             •	 Two of 62 instances where the timecard was not approved until the following pay
                  period.
             •	 Eight of 62 instances where leave was taken prior to supervisor approval.
             •	 One of 62 instances where employee sick leave form was not approved timely.
      •	 Lack of evidence of supervisor review and approval of timesheet and additional supporting
          documentation (one instance):
             •	 One of 62 instances where the employee's timesheet was not reviewed and approved
                  by the appropriate supervisor.

      Recommendations:
      We recommend that TSA:
      •	 Continue to provide training, focusing awareness on maintaining effective controls over time
         and attendance processes. Training should continue to be accomplished through initial
         training of personnel assigned to time and attendance duties as well as refresher training for
         those performing these duties.
      •	 Federal Air Marshall Service Regional Directors within the Office of Field Operations should
         be responsible for validating and certifying all field office K-Band (TSA pay scale) and
         Transportation Senior Executive Service SAC time and attendance forms effective
         immediately.
      •	 Develop and implement policies and procedures for the use of Electronic Time and
         Attendance System, specifically addressing user roles and proper approval of leave and
         overtime using reports available from the system, i.e., the exception report.

TSA – FMC 12-07 – PP&E Site Visits (NFR No. TSA 12-10)

      During our FY 2012 site visits, we noted the following:

      Airport Site Visits
      During our FY 2012 site visits to airports, we noted that controls over PP&E were not fully
      effective at the airports. Specifically, we noted that controls in place did not properly ensure:

      •	 The serial number per the asset agrees to SAMS. KPMG noted one instance where the TSA
         serial number per the asset did not agree to the SAMS record.
      •	 The TSA ID (barcode) per the asset agrees to SAMS. KPMG noted four instances where the
         TSA ID per the asset barcode did not agree to the asset records per SAMS.
      •	 The asset location agrees to that listed in SAMS. KPMG noted five instances where the
         actual location did not agree to the location recorded in SAMS.




                                                   60

                                                                                       Section XII
                            Department of Homeland Security
                            Financial Management Comments
                                  September 30, 2012


•	 Assets not owned by TSA were properly segregated from the inventory scan and excluded
   from SAMS. KPMG noted 2 instances where the asset was leased with GSA but was
   improperly included in SAMS and in the inventory scan report.

Federal Air Marshall Service Site Visits
During our FY 2012 site visits to airports, we noted that controls over property, plant and
equipment were not fully effective at the Federal Air Marshall Service field offices. Specifically,
we noted that controls in place did not properly ensure:
•	 The serial number per the asset agrees to SAMS. KPMG noted five instances where the TSA
    serial number per the asset did not agree to the SAMS record.
•	 The TSA ID (barcode) per the asset agrees to SAMS. KPMG noted one instance where the
    TSA ID per the asset barcode did not agree to the asset records per SAMS.
•	 All TSA owned equipment is properly tagged with a TSA barcode. KPMG noted one
    instance where TSA owned equipment was not tagged with a barcode.
•	 The asset location agrees to that listed in SAMS. KPMG noted three instances where the
    actual location did not agree to the location recorded in SAMS.

TSA Logistics Center Dallas Warehouse
During our FY 2012 visit to the TSA Logistics Center, we noted that controls over property, plant
and equipment were not fully effective at the TSA Logistics Center. Specifically, we noted that
controls in place did not properly ensure:
•	 The serial number per the asset agrees to SAMS. KPMG noted one instance where the TSA
    serial number per the asset did not agree to the SAMS record.
•	 SAMS is updated timely to reflect inventory results. KPMG noted six instances where assets
    scanned as a part of the inventory count were not included in the reconciled TSA Logistics
    Center SAMS balance as of September 14, 2012.

Recommendations:
We recommend TSA:
•	 PMD continue communication and outreach with Accountability Property Officers and
   Property Custodians to address property management processes, procedures, and updates.
•	 PMD provide training and ongoing guidance to Program Managers, Accountability Property
   Officers, Property Custodians, and Vehicle Custodians as needed.
•	 PMD ensure that Office of Law Enforcement/Federal Air Marshall Service program offices
   and locations have access to TSA property management policies, procedures and guidance to
   ensure compliance in adhering to our processes.
•	 PMD work with all program offices and field offices to ensure TSA owned vehicles are
   recorded in SAMS with the correct cost, bar code, serial number, and location.
•	 Open transfer metrics continue to be reported on a monthly basis for monitoring. The detailed
   list of open transfers will be provided to the offices responsible for closing the transfers for
   appropriate action.
•	 PMD, the Financial Management Division, and Office of Security Capabilities will ensure the
   SAMS extract used to perform the final TSA Logistics Center inventory reconciliation is not
   generated until the final shipment of the day is received at the TSA Logistics Center.




                                            61

                                                                                             Section XII
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2012


TSA – FMC 12-08 – PP&E Controls (NFR No. TSA 12-11)

      During our testwork over FY 2012 PP&E activity, we noted the following:

      Asset Additions
      •	 Existing controls are not operating effectively to ensure asset addition values are supported
          with sufficient, appropriate documentation before addition into the Fixed Asset Module.
          Specifically, we noted one vehicle was undercapitalized.

      •	 Existing controls are not operating effectively to ensure asset additions are processed timely
         into the Fixed Assets Module. Specifically, we noted one asset was not approved for addition
         into the Fixed Assets Module until two months after it appeared as a roll-forward addition.

      Asset Retirements
      •	 Existing controls are not operating effectively to ensure asset retirements are supported by
          sufficient and appropriate documentation. Specifically, we noted one asset was identified as
          damaged but was improperly recorded as a deletion and had to be subsequently reinstated.
      •	 Existing controls are not operating effectively to ensure assets are disposed of timely.
          Specifically, we noted two assets were not disposed timely based on review of the supporting
          documentation.
      •	 Existing controls are not operating effectively to ensure gain/loss is correctly recorded upon
          asset retirement. Specifically, we noted two instances where the loss recorded for two asset
          retirements was overstated.

      Transportation Security Equipment (TSE) Roll-forward
      •	 Controls are not designed appropriately to ensure review and approval by the Branch Chief is
         properly evidenced. Specifically, we noted per inspection of the March 31, 2012 equipment
         roll-forward, the Branch Chief’s review was not evidenced.

      Recommendations:
      We recommend TSA:

      Asset Additions
      •	 PMD should implement policies and procedures to utilize invoices providing asset-level
          detail to record vehicle acquisition costs.
      •	 PP&E Accounting Branch should continue to work with program offices to communicate
          supporting documentation requirements for capitalized assets.
      •	 Expand existing Internal Control Branch review or create targeted review to address vehicle
          cost.

      Asset Retirements
      •	 PMD should implement quality review processes to validate asset status prior to disposal.
          PMD will also implement procedures to confirm asset disposals are processed timely with
          adequate supporting documentation attached to the asset record.
      •	 P&E Accounting Branch should utilize policies and procedures to review asset disposals to
          verify disposal dates are correct per supporting documentation and the correct disposal date is
          utilized to calculate and record gain/loss amounts.



                                                  62

                                                                                               Section XII
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


       TSE Roll-forward
       •	 PP&E Accounting Branch Chief or designee should review and approve of the monthly
          Transportation Security Equipment roll-forward. Document evidence of approval via
          signature and date on the roll-forward.

TSA – FMC 12-09 – Completeness of Heritage Assets (NFR No. TSA 12-12)

       TSA lacks policies and procedures to ensure the completeness of artifacts reviewed by the TSA
       Historian Project for consideration for classification as a heritage asset. Specifically, during our
       FY 2012 site visit at the Colorado Springs Operations Center on August 9, 2012, we noted a piece
       of steel beam from the World Trade Center. However, this artifact had not been considered for
       evaluation for classification as a heritage asset by the TSA Historian Project.

       Recommendations:
       We recommend that TSA:
       •	 The TSA Historian Project Manager coordinate a data call to all airports and field offices
          requesting they identify all assets of potential historical significance for review by TSA
          Historian Project.
       •	 Data call requirements be communicated on an annual basis by the PMD via newsletters and
          conference calls.

TSA – FMC 12-10 – Undelivered Orders Controls – Validation and Verification (NFR No. TSA 12­
15)
       TSA’s policies and procedures are not designed effectively to ensure contract close out and
       liquidation of any remaining obligation balances is completed timely.

       Specifically, during undelivered orders (UDO) verification and validation control testwork, we
       noted three instances in which the contract close out procedures and subsequent liquidation of the
       remaining funding was not completed timely.

       Recommendations:
       We recommend TSA:
       •	 Develop new training classes for Program Offices (Financial Management Division and
          Office of Acquisitions partnership).
       •	 Develop priority lists early each fiscal year to address UDOs which use lapsing and
          cancelling funds.

TSA – FMC 12-11 – Travel Authorization Approval (NFR No. TSA 12-17)

       As a result of our testwork to ensure that travel authorizations and vouchers are properly
       approved, coded, and recorded into the FedTraveler System, KPMG noted controls over the travel
       authorizations were not operating effectively. Specifically, we noted:
       •	 In three instances out of 21, travel authorizations were not approved prior to the start of the
           employee's travel, and there was no documentation indicating sufficient justification for why
           the travel was not approved prior to the employee's travel departure date.
       •	 In two instances out of 21, the travel authorization approver did not appear to have proper
           authority to approve the authorization.



                                                   63

                                                                                              Section XII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


      Recommendations:
      We recommend TSA:
      •	 On a monthly basis, a report of travel authorizations approved after the travel start date be run
         and travelers and approvers will be notified of non-compliance and asked to amend the travel
         authorization to provide a justification explaining why the travel was approved after the fact.
         (The requirement that travel should be approved in advance of travel date is a requirement
         included in MD 1000.6.).
      •	 By the 15th of each month, the list of authorized approvers be compared to the approvers of
         travel documents in the system during the same period; any exceptions should be researched.

TSA – FMC 12-12 – Intragovernmental Payment and Collection Review Controls and Suspense
Clearing (NFR No. TSA 12-19)

      In response to FY 2011 NFR TSA-11-14, TSA implemented a new process, effective April 1,
      2012, to review IPAC transactions in order to properly clear these transactions from suspense.
      Under this new policy, all IPAC transactions are reviewed, validated, and approved by the
      appropriate TSA point of contact (CO or COTR) prior to being cleared from the suspense account
      and recorded as an expense. KPMG notes, however, as the control was not implemented until
      April 2012, we continue to note a control deficiency related to the lack of controls in place to
      evidence review of IPAC payments in FY 2012.

      Recommendations:
       We recommend that TSA:
      •	 Financial Management Division continue to execute the IPAC approval process (fully
         implemented in August 1, 2012) in FY 2013.
      •	 Establish reconciliation procedures to ensure that TSA is receiving the goods and services
         billed; to include large agreements such as with GSA.




                                                  64

                                                                                               Section XIII
                                    Department of Homeland Security
                                    Financial Management Comments
                                          September 30, 2012


XIII.   UNITED STATES COAST GUARD (USCG or Coast Guard)

USCG – FMC 12-01 – Fund Balance with Treasury (FBwT) Reconciliations (NFR Nos. USCG 12-03
and USCG-12-03a)

        During our testwork over FBwT as of March 31, 2012, we identified the following conditions:
        •	 The USCG did not properly research and resolve all differences identified during the monthly
           SF-224 reconciliation.
        •	 The monthly Government-Wide Accounting/Central Accounting Reporting System
           (Financial Management Service 6653/4) reconciliation was performed subsequent to the
           submission of financial data to the Department, and reconciling items were not researched
           and resolved. The reconciliation did not result, therefore, in timely, fully-supported resolution
           of the differences identified.
        •	 Regional finance center payment schedules initiated by USCG directing Treasury to issue
           checks or other payments were able to be altered by personnel in the systems group prior to
           transmission through mid-March 2012; at that time, USCG modified the system roles in the
           Core Account System to prevent unauthorized changes.

        During our testwork over FBwT as of September 30, 2012, we identified the following condition:
        •	 USCG did not properly research and resolve all differences between their SF-224 data and
           Treasury IPAC and regional finance center systems prior to submitting their SF-224 to
           Treasury.

        Recommendations:
        We recommend that the USCG:
        •	 Investigate the effect of reporting on the SF-224 only what is recorded in the GL at the time
           of close.
        •	 Continue to perform the detective controls including the management review and approval of
           cash differences.
        •	 Ensure that the reports are prepared using the most current Treasury guidance.

USCG – FMC 12-02 – Expense Process (NFR Nos. USCG 12-05 and 12-05a)

        During our evaluations covering FY 2012 expense transactions, we noted the following control
        deficiencies:
        •	 USCG did not record Accounts Payable, Delivered Orders- Obligations Unpaid, and the
            relevant asset or expense account at the time goods or services were received. Rather, items
            were recorded as an Accounts Payable or Delivered Order when paid.
        •	 USCG was unable to provide documentation to evidence that the required approval of
            payment was obtained prior to the transfer of funds for all IPAC transactions. Further, USCG
            was unable to provide documentation of when goods/services were received.
        •	 USCG was unable to provide documentation that all purchase orders were properly reviewed
            and approved by a CO.
        •	 USCG was unable to provide purchase request forms to support all expense amounts.
        •	 The Core Accounting System associated the incorrect trading partner identification numbers
            with some Federal vendors.




                                                    65

                                                                                           Section XIII
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2012


      •	 USCG did not properly record liabilities for all GSA cancelable lease payables. Payables and
         obligations should be recorded for the minimum lease term until cancellation.
      •	 USCG expensed more than the amount obligated for travel orders.
      •	 USCG did not properly record expense transactions in all cases. Specifically, a cost incurred
         in FY 2011 was improperly recorded in FY 2012, and the object class was improperly
         recorded to the Core Accounting System.

      As a result of the exceptions identified, through FY 2012 expense testwork, we noted total
      projected misstatements to Operating Expenses (USSGL Account 6100) of approximately $20.6
      million.

      Recommendations:
      We recommend that the Coast Guard:
      •	 Perform work in FY 2013 to assess feasibility of implementing a receipting function in order
         to address the timing issues between delivery of goods and services and the recording of an
         accounts payable.
      •	 Evaluate the IPAC process to refine procedures such that needed notification of receipt of
         goods and services are met.
      •	 Revise current procedures related to procurement such that:
             •	 Necessary reviews are conducted and signatures are obtained for all purchase orders.
             •	 Approval is received prior to processing payments.
             •	 Purchase request forms are properly maintained to support expenses.
             •	 Payables and obligations of minimum lease terms until cancellation are properly
                  recorded.
             •	 Adequate obligation amounts are required prior to expensing travel orders.
             •	 Consistent and adequate documentation of incorrectly posted expenses will be
                  properly maintained to support reversals/adjustments.
             •	 Accounting transactions are properly selected to prevent recordation of liabilities for
                  amounts already paid.
             •	 A monthly reclassification to correctly post benefits to SGL 6400 is performed.
             •	 Reconciliations to capture accurate expense activity in the Aviation Logistics
                  Management Information System are performed.
      •	 Document and implement a standardized policy to ensure that correct trading partner
         identification numbers are associated with the proper Federal vendors.
      •	 Verify that procedures are performed as documented to ensure transactions are expenses in
         the proper period and recorded to the proper line of accounting.

USCG – FMC 12-03 – Accounts Receivable and DCIA Compliance (NFR No. USCG 12-11)

      During our evaluation of Coast Guard’s internal controls and account balances for Cost Recovery
      Accounts Receivable related to the Oil Spill Liability Trust Fund, we noted the following:
      •	 11 of 58 National Pollution Fund Center receivable balances that were more than 180 days
         past due were not properly referred to Treasury as of March 31, 2012.
      •	 National Pollution Fund Center was unable to provide support for ‘Unbilled Cost Recovery’
         amounts used to calculate the Incurred but Not Reported amount as of March 31, 2012.
      •	 The underlying data used to determine the amount of Unbilled Incurred but Not Reported for
         Deepwater Horizon was not complete and accurate as of March 31, 2012.


                                                 66

                                                                                            Section XIII
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2012


      •	 National Pollution Fund Center did not review and approve rates applied to reserve amounts
         for Cost Recovery Accounts Receivable for FY 2012.

      Recommendations:
      We recommend that Coast Guard:
      •	 Design and implement effective internal controls to ensure outstanding Oil Spill Liability
         Trust Fund accounts receivable are referred to Treasury or the Department of Justice for
         collection prior to becoming 180 days delinquent.
      •	 Develop and maintain detail reports that support outstanding accounts receivable Oil Spill
         Liability Trust Fund summary balances.
      •	 Design and implement internal controls for reviewing the Deepwater Horizon Incurred but
         Not Reported calculation.
      •	 Develop and implement procedures for review and approval of the annual Oil Spill Liability
         Trust Fund allowance for doubtful accounts rate table calculation.

USCG – FMC 12-04 – Operating Materials and Supplies (NFR No. USCG 12-16)

      During our FY 2012 evaluations over the balance of operating materials and supplies (OM&S),
      we noted the following control deficiencies:
      •	 Logistics centers were unable to provide sufficient support for all transactions selected for
         testwork.
      •	 Logistics centers had errors in various weighted average pricing calculations.

      As a result of the exceptions identified, through FY 2012 expense testwork, we noted total
      projected misstatements to OM&S (USSGL Account 1511) at September 30, 2012 of $12.3
      million.

      Recommendations:
      We recommend that Coast Guard:
      •	 Determine the underlying cause for the inability to support the Quantity On Hand in order to
         determine what caused the issue to ensure it is prevented in the future.
      •	 Correct the underlying system error that caused the miscalculation.

USCG – FMC 12-05 – Financial Disclosure Reports (NFR No. USCG 12-17)

      During Entity Level Control testwork, KPMG noted the following:
      •	 The USCG does not have adequate procedures in place to ensure new entrants to Confidential
         Financial Disclosure Report filing positions are required to file a New Entrant Confidential
         Financial Disclosure Report.
      •	 KPMG selected a sample of 25 Public Financial Disclosure Reports filed in 2012 and noted
         that one of the reports was not properly reviewed and approved by the DAEO, the Chief
         Counsel of the USCG.

      Recommendation:
      We recommend that Coast Guard continuously evaluate and strengthen internal controls related
      to the Confidential Financial Disclosure Report and Public Financial Disclosure Report filings to




                                                  67

                                                                                    Section XIII
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2012


ensure full compliance with all Confidential Financial Disclosure Report and Public Financial
Disclosure Report program rules.




                                           68

                                                                                              Section XIV
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


XIV.   UNITED STATES SECRET SERVICE (USSS)

USSS – FMC 12-01 – JE Controls (NFR No. USSS 12-01)

       During testwork over a sample of 55 JEs, the following deficiencies were identified:
       •	 One instance in which documentation to support the purpose of an entry posted by the Office
          of Budget was not provided.
       •	 One instance in which an entry was not properly reviewed and approved prior to posting.
       •	 Several instances in which entries related to the recording of the pension liability and related
          expense were posted to the incorrect standard general ledger account.

       Recommendations:
       We recommend that USSS:
       •	 Financial Management Division reinforce to the Accounting Staff that all JVs posted in the
          financial reporting system are subject to approval by either the Accounting Branch Chief or
          the Deputy Division Chief.
       •	 Revise the procedures for posting the actuarial gains/losses based on the actuarial liability
          report. The procedures should also state that any changes to the procedures must be approved
          by the Deputy Chief of the Financial Management Division. This includes top-side
          adjustments from the Department as well.

USSS – FMC 12-02 – Funds Management Controls and Supporting Documentation (NFR No. USSS
12-02)

       During testwork over USSS’s open obligation balance and UDOs activity as of June 30, 2012,
       and September 30, 2012, we reviewed a sample of 118 transactions and identified the following
       deficiencies:
       •	 One instance where the obligation had not had any activity since FY 2009, and was therefore
           invalid and had not been de-obligated.
       •	 One instance in which the POP was back dated on an executed contract in order to accept the
           invoice for the services performed.

       During testwork over USSS’s operating expenses type transactions as of June 30, 2012, and
       September 30, 2012, we reviewed a sample of 31 transactions and identified the following
       deficiencies related to improper 3-way match:
       •	 One instance in which the invoice detail did not agree to the amount of the expense per the
           face of the invoice.
       •	 One instance in which the goods received date (per the face of the invoice) did not agree to
           the receipt date recorded in the GL.

       The GL system contains limitations to appropriately post prior year de-obligations in accordance
       with the USSGL requirements for upward/downward adjustments.




                                                   69

                                                                                             Section XIV
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2012


       Recommendations:
       We recommend that USSS:
       •	 Reinforce policies surrounding contract execution and ratification. Additionally, USSS
          sections that process payments within the Financial Management Division should be provided
          instruction regarding the need to utilize the correct received date and to review and have
          supporting documentation for all invoice charges.
       •	 For open obligations, USSS should develop and provide instruction on procedures for
          monitoring open obligations, obligation activity and de-obligation.

USSS – FMC 12-03 – Deficiencies in USSS’s Seized Property Inventory Process (NFR No. USSS 12­
03)

       We statistically selected five seized property locations in which to observe the annual inventory
       and noted the following:
       •	 One instance in which the chain of custody form was not available for inspection and
           verification but was included on the count sheet as inventory at the site.

       Upon review of the inventory completion package, we noted the following:
       •	 One instance in which the counterfeit tracking application (CTA) did not properly reflect the
          transfer of a case to another field office.

       Upon review of the September consolidated reconciliation, we noted the following:
       •	 One instance in which the total not-in-evidence notes per the reconciliation were not properly
          updated to reflect the September activity submitted by the field office.
       •	 Subsequent to review and approval, the total notes reported on the reconciliation as of
          September 30, 2012 was corrected due to a mathematical error on the original approved
          reconciliation.

       Recommendation:
       We recommend that USSS’s Forensic Services Division management and evidence vault team
       schedule a meeting with the Financial Management Division and the CTA program manager to
       review the current policies and reporting procedures used for tracking and transferring evidence,
       and update as necessary.

USSS – FMC 12-04 – Human Resource Compliance and Controls (NFR No. USSS 12-04)

       During testwork over a sample of 25 employee personnel actions (SF-52s), the following
       deficiencies were identified:
       •	 Five instances in which the quality review for the personnel action was not completed timely
           (i.e., within one month following the effective date of the action).
       •	 Four instances in which documentation to evidence the completion of the quality review was
           not provided.
       •	 Two instances in which documentation to support award approval was unable to be provided.
       •	 One instance in which the employee’s grade per the SF-52 did not agree to the SF-50.

       During testwork over a sample of 53 employees’ payroll and benefit expense, the following
       deficiencies were identified:



                                                   70

                                                                                  Section XIV
                          Department of Homeland Security
                          Financial Management Comments
                                September 30, 2012


•	 Inaccurate expenses calculations:
       •	 One instance in which the employee’s overtime was calculated using the incorrect
           rate.
•	 Lack of documentation:
       •	 Four instances in which the SF-2809 (FEHB form), evidencing either the current
           benefits election or the waiver of benefits, was unable to be provided.
       •	 Seven instances in which the current Thrift Savings Plan election form was unable to
           be provided.

Recommendation:
We recommend that USSS review all standard operating procedures and make necessary
adjustments. Review a random sample of data on a biweekly basis to ensure that proper
procedures are followed.




                                          71

                                                                                            Section XV
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


XV.    CONSOLIDATED (CONS)

CONS – FMC 12-02 – Interim Contingent Legal Liabilities Review (NFR No. CONS 12-02)

       As a result of our testwork and review of the FY 2012 interim contingent legal liability
       management schedule, case templates and component disclosure statements, we noted the
       following:
       •	 Four instances where the information included on the management schedule and case
           templates did not agree.
       •	 One instance where the materiality threshold for a legal disclosure statement did not match
           the legal materiality for the component.

       Recommendation:
       We recommend that DHS Financial Management continue to make improvements in executing
       existing controls related to the legal liability process.

CONS – FMC 12-02 – Preparation and Review of the Special-Purpose Financial Statements and
Notes (NFR No. CONS 12-04)

       During our audit of the closing package, we identified the following errors, related to the
       Government-wide Financial Report System (GFRS) Financial Report (FR) Note Reports and
       Trading Partner Summary Note:
       •	 GF006 – Note 06 – PP&E – Cost of PP&E for each category section – the amount listed in
          Line 3 – CIP was overstated by $99 million and the amount listed in Line 5 – IUS was
          understated by $99 million.
       •	 GF006 – Note 06 – PP&E – Intra-governmental Capitalized acquisition amounts section – the
          amount listed in Line 1 – GSA was overstated by $46 million and the amount listed in Line 6
          – All other departments was overstated by $145 million, resulting in a $191 million
          overstatement.
       •	 GF006 – Note 06 – PP&E – for the prior year PP&E column, the amount listed in Line 1 –
          PP&E – balance beginning of year was overstated, the amount in Line 2 – Prior-period
          adjustments (not restated) was understated by $153 million, the amount in Line 3 –
          Capitalized acquisition from the public was understated by $234 million, the amount in Line
          4 – Capitalized acquisitions from Government agencies was overstated by $149 million, and
          the amount on Line 6 – Deletions from the Balance Sheet was understated by $116 million,
          resulting in an understatement of $351 million.
       •	 GF006 – Note 06 – PP&E – for the prior year Accum. Depr. Column, the amount listed in
          Line 1 – PP&E – balance beginning of year was overstated by $2 million, the amount listed
          in Line 2 – Prior-period adjustments (not restated) was understated by $20 million, and the
          amount listed in Line 6 – Deletions from the Balance Sheet was understated by $18 million,
          resulting in an understatement of $36 million.
       •	 GF006 – Note 18 – Contingencies (SFFAS Nos. 5 and 12) – Civil Litigation, Claims and
          Assessments section – the amount in Line 2 – Reasonably Possible for current year Estimated
          Range (High end) was understated by $78 million, the amount in Line 1 – Probable for
          current year Claim amount (Unable to determine loss) was overstatement by $11 million, and
          the amount in Line 2 – Reasonably Possible for current year Claim amount (Unable to
          determine loss) was understated by $9 million.



                                                  72

                                                                                      Section XV
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2012


•	 GF006 – Note 26 – Heritage Assets – Text data section – the narrative data in Line 3 was not
   updated for FY 2012.
•	 The Coast Guard does not have properly designed, implemented, and effective policies,
   procedures, processes, and controls surrounding its financial reporting process to ascertain
   that intra-governmental activities and balances are identified and coded to the correct trading
   partner. Additionally, differences, especially with agencies outside DHS, are not consistently
   investigated and resolved in a timely manner in coordination with the Department’s OFM.

Recommendations:
We recommend that DHS:
•	 Conduct a comprehensive review of the current GFRS FR note preparation and review
   process and identify additional areas for automation and streamlining and document each FR
   note’s process in detail to show more data sources.
•	 Enhance the quality control process of component-provided data (manual notes and other text
   explanations) prior to consolidation and input into GFRS.




                                           73

                                                                                                      Appendix A
                                  Department of Homeland Security
                     Crosswalk - Financial Management Comments to Active NFRs
                                         September 30, 2012


                                                                                            Disposition1
                                                                                            IAR            FMC
            NFR
Component            Description                                                       MW   SD       NC    No.
            No.
                     Automated Commercial System (ACS) Limitations – Review
CBP         12-01    of Prior Related Drawback Claims and Selectivity for                   H
                     Underlying Consumption Entities
                     Lack of Implementation of Controls over Determining
CBP         12-02                                                                                          12-01
                     Classification of Leases
                     ACS Deficiency over the Accumulation of Accelerated
CBP         12-03                                                                                          12-02
                     Payments Against a Drawback Bond
                     Insufficient Retention Period for Documents that Support
CBP         12-04                                                                                          12-03
                     Drawback Claims
                     Improper Settlement of Assets, including Untimely
CBP         12-05    Capitalization of Assets from Construction in Progress (CIP)      C
                     as of April 30, 2012
                     Improper Settlement of Assets, including Untimely
CBP         12-05b   Capitalization of Assets from CIP as of July 31, 2012 and         C
                     September 30, 2012
                     Weaknesses in CBP’s Process Related to Asset Additions as
CBP         12-06                                                                      C
                     of April 30, 2012
                     Weaknesses in CBP's process related to asset additions and
CBP         12-06b   classification of assets as of July 31, 2012 and September 30,    C
                     2012
                     Weaknesses in Control over Timely Processing of Goods and
CBP         12-07                                                                                          12-04
                     Services received as of March 31, 2012
                     Weaknesses in Controls over Timely Processing of Goods and
CBP         12-07b                                                                                         12-04
                     Services received as of July 31, 2012 and September 30, 2012
                     Weaknesses in CBP’s Process Related to Asset Disposals as
CBP         12-08                                                                      C
                     of April 30, 2012
                     Weaknesses in CBP’s Process Related to Asset Disposals as
CBP         12-08b                                                                     C
                     of July 31, 2012
                     Insufficient Review of ACS and User Fee Database
CBP         12-09                                                                                          12-05
                     Reconciliation
                     Deficiencies in the Public and Confidential Financial
CBP         12-10                                                                                          12-06
                     Disclosure Reporting Process
CBP         12-11    Deficiencies in the Performance Management Program                                    12-07
                     ACS deficiencies over Non-Entity Accounts Receivable and
CBP         12-12                                                                                     J
                     CBP’s ability to effectively monitor collection actions
                     Insufficient Review of the COBRA User Fees and
CBP         12-13                                                                                          12-08
                     Immigration User Fees Accounts Receivable Estimate
CBP         12-14    Detection of Excessive Drawback Claims                                 H
                     Lack of system integration and compliance with the United
CBP         12-15    States Standard General Ledger at the transaction level related                  J
                     to Inventory and Related Property, Net
CBP         12-16    Lack of Segregation of Duties over Collections and Deposits                           12-09
CBP         12-17    Weaknesses in the Trade Compliance Measurement program                                12-10
CBP         12-18    Deficiencies in the In-Bond Process                                    H
                     Weaknesses in the Review of Weekly Entry Edit/Exception
CBP         12-19                                                                                          12-11
                     Reports
                     Management Oversight of Property Plant & Equipment
CBP         12-20                                                                      C
                     (PP&E)
CBP         12-21    Deficiencies over Monitoring of Ethics Requirements                                   12-12
CBP         12-22    Untimely Undelivered Orders (UDOs) Quarterly Review                                   12-13



                                                          74

                                                                                                    Appendix A
                                  Department of Homeland Security
                     Crosswalk - Financial Management Comments to Active NFRs
                                         September 30, 2012


                                                                                          Disposition1
                                                                                          IAR            FMC
            NFR
Component            Description                                                     MW   SD       NC    No.
            No.
                     Weaknesses in controls over Customs-Trade Partnership
CBP         12-23                                                                                        12-14
                     Against Terrorism Benefits
CBP         12-24    Lack of Verification of Refunds                                                     12-15
                     Weaknesses Identified in the Bonded Warehouse and Foreign
CBP         12-25                                                                         H
                     Trade Zone processes and procedures
                     Weaknesses in Controls over the Bond Sufficiency Review
CBP         12-26                                                                                        12-16
                     Process
CBP         12-27    Deficiencies in the Seized Inventory Process                                        12-17
                     Deficiencies in the Review of the Department of Labor
CBP         12-28                                                                                        12-18
                     Chargeback Report
                     Weaknesses in CBP’s Process Related to Recording
CBP         12-29                                                                                        12-19
                     Construction Percentage of Completion Amounts
                     Untimely de-obligation of UDOs and Weaknesses in Related
CBP         12-30                                                                                        12-20
                     Controls
CBP         12-31    Deficiencies in the Review of SF-52 PARTS Actions                                   12-21
CBP         12-32    Deficiencies in the Review of Adjusting Journal Entries (JEs)                       12-22
CBP         12-33    Deficiencies in the Inventory and Related Property Process                          12-23
CBP         12-34    Deficiencies in Tracking CBP Leases                                                 12-24


DNDO        12-01    Deficiencies in the Operating Expense Process                                       12-01
DNDO        12-01a   Deficiencies in the Operating Expense Process                                       12-01
DNDO        12-02    Deficiencies related to Monitoring UDOs                                             12-02


FEMA        12-01    Inability to Link Systems to Significant Grant Programs                             12-01
                     Ineffective Controls over Grant Obligations, Deobligations,
FEMA        12-02                                                                         G         K
                     and Monitoring Efforts
FEMA        12-02a   Ineffective Controls over Grant Monitoring Efforts                   G         K
                     Ineffective Controls over Grants Management and Non-
FEMA        12-02b                                                                        G
                     Compliance with Cash Management Improvement Act
                     Non-Compliance with 5 Code of Federal Regulations (CFR)
FEMA        12-03                                                                          F
                     Part 2634 and 5 CFR Part 2638 Related to Ethics Requirement
                     Ineffective Controls over Intragovernmental Activity
FEMA        12-04                                                                    E
                     Obligations, Deobligations, and Payments
FEMA        12-05    Ineffective Design of Controls Related to Grants Activities                         12-02
                     Ineffective Design of Controls Related to Intragovernmental
FEMA        12-06                                                                                        12-03
                     Activities
                     Internal Control Deficiencies Identified over Claims Paid at
FEMA        12-07    Selected Insurance Companies that Participate in FEMA’s                             12-04
                     National Flood Insurance Program as of March 31, 2012
                     Internal Control Deficiencies Identified over Claims Paid at
FEMA        12-07a   Selected Insurance Companies that Participate in FEMA’s                             12-04
                     National Flood Insurance Program as of August 31, 2012
                     Ineffective Controls over the Recording of Funding
FEMA        12-08                                                                    E
                     Transactions
                     Deficiencies Identified over Premiums Written by FEMA’s
FEMA        12-09                                                                                        12-05
                     National Flood Insurance Program as of March 31, 2012




                                                         75

                                                                                                    Appendix A
                                  Department of Homeland Security
                     Crosswalk - Financial Management Comments to Active NFRs
                                         September 30, 2012


                                                                                          Disposition1
                                                                                          IAR            FMC
            NFR
Component            Description                                                     MW   SD       NC    No.
            No.
                     Deficiencies Identified over Premiums Written by FEMA’s
FEMA        12-09a                                                                                       12-05
                     National Flood Insurance Program as of August 31, 2012
                     Ineffective Controls over Procurement Obligations,
FEMA        12-10    Deobligations, Payments, and Monitoring Efforts and Non-        E
                     Compliance with Federal Acquisition Regulation (FAR)
                     Ineffective Controls over Procurement Payments and
FEMA        12-10a                                                                                       12-06
                     Monitoring Efforts
                     Ineffective Controls over Procurement and Non-Compliance
FEMA        12-10b                                                                                       12-07
                     with FAR
FEMA        12-11    Deficiencies in the Monthly Budget Execution Reviews                                12-08
                     Deficiencies Identified in the Integrated Financial
FEMA        12-12    Management Information System Chart of Accounts and                                 12-09
                     Transaction Codes
                     Continued Deficiencies Identified in the Integrated Financial
FEMA        12-12a   Management Information System Transaction Codes as of                               12-09
                     September 30, 2012
                     Ineffective Design of Controls Related to Monitoring
FEMA        12-13                                                                    E
                     Obligations
                     Deficiencies in the Preparation and Review of the
FEMA        12-14    Government Accountability Office (GAO) Financial Audit                              12-10
                     Manual 2010 – Checklist for Federal Accounting
                     Deficiencies in Development of Mission Assignment Policies
FEMA        12-15                                                                                        12-11
                     and Procedures
                     Ineffective Controls over Tracking Grants Eligible for Close­
FEMA        12-16                                                                         G
                     out
                     Inadequate Documentation Related to Payroll Processing and
FEMA        12-17                                                                                        12-12
                     Lack of Formal Policies and Procedures
                     Ineffective Monitoring of Internal Controls via the Internal
FEMA        12-18                                                                                        12-13
                     Control Board
                     Lack of Documentation Related to the Contingent Legal
FEMA        12-19                                                                                        12-14
                     Liabilities Review
                     Deficiencies Identified over Claims’ Loss Reserves at
FEMA        12-20    Selected Insurance Companies that Participate in FEMA’s                             12-15
                     NFIP as of March 31, 2012
                     Deficiencies Identified over Claims’ Loss Reserves at
FEMA        12-20a   Selected Insurance Companies that Participate in FEMA’s                             12-15
                     National Flood Insurance Program as of August 31, 2012
                     Deficiencies in the Monthly Standard Form SF-132 to SF-133
FEMA        12-21                                                                    E
                     Reconciliation Process
                     Budgetary Accounting Issues Identified in Journal Voucher
FEMA        12-22                                                                    E
                     (JV) Testwork through June 30, 2012
FEMA        12-23    Issues Identified in JV Testwork through June 30, 2012                              12-16
FEMA        12-23a   Issues Identified in JV Testwork through September 30, 2012                         12-16
FEMA        12-24    Non-Compliance with Prompt Pay Act                                                  12-17
                     Lack of Communication to Employees Regarding the
FEMA        12-25    Department of Homeland Security (DHS) Office of Inspector                           12-18
                     General Hotline and the Code of Conduct
                     General Office of Chief Procurement Officer Lack of
FEMA        12-26                                                                                        12-19
                     Responsiveness and Process Knowledge
FEMA        12-27    Inability to Closeout Assistance to Firefighter Grants                              12-20




                                                         76

                                                                                                   Appendix A
                                 Department of Homeland Security
                    Crosswalk - Financial Management Comments to Active NFRs
                                        September 30, 2012


                                                                                         Disposition1
                                                                                         IAR            FMC
            NFR
Component           Description                                                     MW   SD       NC    No.
            No.
                    Monitoring of Audit Findings in Accordance with Office of
FEMA        12-28                                                                        G
                    Management and Budget Circular A-133
FEMA        12-29   Deficiencies Related to the Public Disclosure Filing Process          F
FEMA        12-30   Deficiencies in the Monitoring of Staffing Requirements                             12-21
                    Improvements Needed in Management’s Review of the
FEMA        12-31                                                                                       12-22
                    Legacy Preparedness Accrual Model
                    Untimely Reduction of Invalid Unfilled Customer Orders
FEMA        12-32                                                                                       12-23
                    (UCOs)
FEMA        12-33   Improper Processing of UDOs and Expenses                        E
                    Improvements Needed in Management’s Review of the
FEMA        12-34                                                                                       12-24
                    Acceptable Variance Range for the SmartLink Accrual Model
FEMA        12-35   Untimely De-Obligation of UDOs                                  E
FEMA        12-36   Failure to Recertify Policies and Procedures in Various Areas         F
                    Deficiencies in the Methodology and Controls Related to the
FEMA        12-37   Non-Grant, Non-Intragovernmental Accounts Payable                                   12-25
                    Accrual
                    Deficiency Identified Related to the Preparation and Review
FEMA        12-38                                                                                       12-26
                    of the Retrospective Review Analysis
                    Deficiencies in Verification and Collection of Required
                    Supplementary Stewardship Information and Performance
FEMA        12-39                                                                                       12-27
                    Measurement Data for the Annual Financial Report’s
                    Management’s Discussion and Analysis


FLETC       12-01   Deficiencies in the Financial Disclosure Reporting Process                          12-01
FLETC       12-02   Beginning Balance UCO Errors                                    E
FLETC       12-03   Deficiencies in the Review of SF-50s                                                12-02


                    Inadequate Policies and Procedures over the Review of
USCIS       12-01                                                                                       12-01
                    Personnel Actions
                    Insufficient Reconciliation between Purchase Request
USCIS       12-02   Information System (PRISM) and Federal Financial                                    12-02
                    Management System (FFMS)
                    Potential Non-compliance with Office of Government Ethics
USCIS       12-03                                                                                       12-03
                    (OGE)-450 Filing Requirements
                    USCIS Contracting Officers Disregarded DHS Invoice
USCIS       12-04                                                                                       12-04
                    Approval Requirements
USCIS       12-05   Insufficient Review of JEs                                                          12-05
                    Inaccurate Data in the Claims 3 system, Claims 4 system, and
USCIS       12-06                                                                                       12-06
                    Marriage Fraud Amendment System
USCIS       12-07   Insufficient Review of Deposit Transactions                                         12-07
                    Inadequate Monitoring of Fee Table Changes in Deferred
USCIS       12-08                                                                                       12-08
                    Revenue Estimate Process
USCIS       12-09   Deficiencies in the Recording of Internal Use Software (IUS)                        12-09
USCIS       12-10   Deficiencies in the Timely Recording of Capital Equipment                           12-10


ICE         12-01   Inadequate Controls over New Hire Ethics Briefings                                  12-01



                                                         77

                                                                                                  Appendix A
                                 Department of Homeland Security
                    Crosswalk - Financial Management Comments to Active NFRs
                                        September 30, 2012


                                                                                       Disposition1
                                                                                       IAR              FMC
            NFR
Component           Description                                                   MW   SD        NC     No.
            No.
                    Student and Exchange Visitor Information System Data is not
ICE         12-02                                                                                       12-02
                    Reconciled to FFMS data
                    Inadequate Policies and Procedures for Tracking and
ICE         12-03                                                                 C
                    Reporting Personal Property
ICE         12-04   Inadequate Internal Controls over Tracking of IUS Projects    C
                    Inadequate Internal Controls over Tracking Leasehold
ICE         12-05                                                                 C
                    Improvement Projects
ICE         12-06   Prior Period Settlement Expense                               A
ICE         12-07   GAO Checklist Review                                                                12-03
ICE         12-08   Untimely Review of OGE-450 Forms                                                    12-04
ICE         12-09   Ineffective Internal Controls Over Leave Audit Process                              12-05
ICE         12-10   FFMS to PRISM Reconciliation                                                        12-06
                    Subject to Availability of Funding Agreements not Obligated
ICE         12-11                                                                                       12-07
                    in FFMS at Outset of Agreement
ICE         12-12   Failure to Reverse Payroll Accrual                            A
ICE         12-13   Advances and Affiliated Obligations                           E
                    Federal Financial Management Improvement Act of 1996
ICE         12-14                                                                                 J
                    (FFMIA) Compliance
                    Inadequate Documentation of Subsequent Events Review
ICE         12-15                                                                 A
                    Procedures
ICE         12-16   Inadequate Documentation of Inventory Procedures              C
                    Accounts Payable (A/P) Estimation Methodology Does not
ICE         12-17   Contain Procedures for Considering Improvements to                                  12-08
                    Methodology
ICE         12-18   Deficiencies in Entity-level Controls (ELCs)                        F
ICE         12-19   Untimely de-obligation of UDO Balances                        E
ICE         12-20   Recoveries of Prior Year Unpaid Obligations                   E
ICE         12-21   Inadequate Policies and Procedures for PP&E Accruals                                12-09


MGA         12-01   UDO Validity                                                                        12-01
MGA         12-02   Potential Anti-deficiency Act (ADA) Violation                                 L
MGA         12-03   Deficiencies in the Payroll Process                                                 12-02


MGT         12-01   Inadequate Internal Controls over PP&E                                              12-01
MGT         12-02   Unfilled Customer Orders in Working Capital Fund              E
MGT         12-03   Untimely de-obligation of UDO balances                        E


NPPD        12-01   Inadequate PRISM to FFMS reconciliation                                             12-01
                    Inadequate review and write down of Risk Assessment and
NPPD        12-02                                                                       F
                    Management Program
                    Federal Protective Services (FPS) Accounts Receivable
NPPD        12-03                                                                                       12-02
                    Allowance
NPPD        12-04   Number not used                                                    Not applicable



                                                          78

                                                                                                  Appendix A
                                 Department of Homeland Security
                    Crosswalk - Financial Management Comments to Active NFRs
                                        September 30, 2012


                                                                                       Disposition1
                                                                                       IAR              FMC
            NFR
Component           Description                                                   MW   SD        NC     No.
            No.
NPPD        12-05   UCOs Not Recorded for Recurring Security Agreements                                 12-03
NPPD        12-06   FPS Headquarters Security Billing Review                                            12-04
NPPD        12-07   Untimely de-obligation of UDO balances                                              12-05
NPPD        12-08   Potential violation of the ADA                                                L
NPPD        12-09   Number not used                                                    Not applicable
NPPD        12-10   Number not used                                                    Not applicable
NPPD        12-11   ELCs                                                                F
NPPD        12-12   Accounts Payable Estimate Methodology                                               12-06
NPPD        12-13   PP&E Held at Other Agency Not Timely Recorded                       F


OHA         12-01   Bioshield A/P Accrual                                                               12-01
OHA         12-02   Contract Management                                                                 12-02


S&T         12-01   FFMS to PRISM Reconciliation                                                        12-01
                    Inadequate controls and procedures over recording and
S&T         12-02                                                                                       12-02
                    reporting personal property
                    Inadequate Internal Controls over reporting of CIP and
S&T         12-03                                                                                       12-03
                    buildings
S&T         12-04   Inadequate Documentation of Inventory Procedures                                    12-04
S&T         12-05   Inadequate UCO Review                                                               12-05
                    Inadequate Policies and Procedures for Identifying Heritage
S&T         12-06                                                                                       12-06
                    Assets


TSA         12-01   Asset Exchanges                                                                     12-01
TSA         12-02   Revenue Analytic                                              A
TSA         12-03   ELCs and Related Effects on Financial Reporting               A     F
                    Noncompliance with Debt Collection Improvement Act
TSA         12-04                                                                                       12-02
                    (DCIA) of 1996
TSA         12-05   Revenue Fee Classification                                                          12-03
TSA         12-06   Review of JVs                                                                       12-04
                    Employee Record Management and Compliance with Human
TSA         12-07                                                                                       12-05
                    Resources Related Laws
TSA         12-08   Public Financial Disclosure Forms                                   F
TSA         12-09   Ineffective Controls over the Time and Attendance Process                           12-06
TSA         12-10   PP&E Site Visits                                                                    12-07
TSA         12-11   PP&E Controls                                                                       12-08
TSA         12-12   Completeness of Heritage Assets                                                     12-09
TSA         12-13   Invalid and Inaccurate UDOs                                   A
TSA         12-14   Improper Expense Recognition                                  A
TSA         12-15   UDO Controls – Validation and Verification                                          12-10




                                                        79

                                                                                                Appendix A
                                  Department of Homeland Security
                     Crosswalk - Financial Management Comments to Active NFRs
                                         September 30, 2012


                                                                                     Disposition1
                                                                                     IAR              FMC
            NFR
Component            Description                                                MW   SD        NC     No.
            No.
TSA         12-16    Lease Accounting and Disclosure                            A
                                                                                                      12-11
TSA         12-17    Travel Authorization Approval

TSA         12-18    Number not used                                                 Not applicable
                     Intragovernmental Payment And Collection Review Controls
TSA         12-19                                                                                     12-12
                     and Suspense Clearing
TSA         12-20    Controls over IUS                                          A
TSA         12-21    Non-Compliance with the FFMIA                                              J
TSA         12-22    Prior Year Adjustments                                     A


USCG        12-01    PP&E Site Visit Observations                               C
USCG        12-02    Stewardship PP&E                                           C
USCG        12-02a   Stewardship PP&E, Appended                                 C
USCG        12-03    Fund Balance with Treasury (FBwT) Reconciliations                                12-01
USCG        12-03a   FBwT Reconciliations                                                             12-01
USCG        12-04    Opening Balances                                           A
USCG        12-05    Expense Process                                            E                     12-02
USCG        12-05a   Expense Process                                            E
USCG        12-06    PP&E Asset Records                                         C
USCG        12-07    Environmental and Disposal Liabilities Process Controls    D
USCG        12-08    Non-Generally Accepted Accounting Principles Analysis      A
USCG        12-09    Reimbursable Agreements                                    E
USCG        12-10    Lease Recordation Process                                  C
USCG        12-11    Accounts Receivable and DCIA Compliance                                          12-03
USCG        12-12    A/P                                                        D
USCG        12-13    Financial Statements – Impacting Scripts                   B
USCG        12-14    Recoveries of Prior Year Unpaid Obligations                E
USCG        12-14a   Recoveries of Prior Year Unpaid Obligations
USCG        12-15    Intragovernmental Transactions and Balances                A
USCG        12-16    Operating Materials and Supplies                                                 12-04
USCG        12-17    Financial Disclosure Reports                                                     12-05
USCG        12-18    UDOs                                                       E
USCG        12-19    CIP                                                        C
USCG        12-20    FFMIA                                                                      J
USCG        12-21    Financial Reporting Process                                A
USCG        12-22    Real Property                                              C
USCG        12-23    Federal Managers’ Financial Integrity Act                                  I
USCG        12-24    Manual JVs and On-Top Adjustments                          A




                                                         80

                                                                                                              Appendix A
                                      Department of Homeland Security
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
              NFR
Component                Description                                                        MW     SD        NC       No.
              No.


USSS          12-01      JE Controls                                                                                 12-01
USSS          12-02      Funds Management Controls and Supporting Documentation                                      12-02
USSS          12-03      Deficiencies in USSS’ Seized Property Inventory Process                                     12-03
USSS          12-04      Human Resource Compliance and Controls                                                      12-04


                         Departmental Standards of Conduct and Procedural Guidance
CONS          12-01                                                                                 F
                         for Financial Disclosure Report Filing
CONS          12-02      Interim Contingent Legal Liabilities Review                                                12-01
                         Deficiencies in the public and confidential financial disclosure
CONS          12-03                                                                                 F
                         reporting process
                         Preparation and Review of the Special-Purpose Financial
CONS          12-04                                                                                                 12-02
                         Statements and Notes
1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 14, 2012
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                               81

                                                                                                           Appendix B
                                      Department of Homeland Security
                                         Status of Prior Year NFRs
                                            September 30, 2012


                                                                                                Disposition1
            NFR                                                                                            Repeat
Component            Description                                                                Closed2
            No.                                                                                            (2011 NFR No.)
CBP         11-01    Certification of Refund and Drawback Payments                                 X
                     Insufficient Retention Period for Documents that Support Drawback
CBP         11-02                                                                                         CBP 12-04
                     Claims
                     Automated Commercial System (ACS) Deficiency over the Accumulation
CBP         11-03                                                                                         CBP 12-03
                     of Accelerated Payments Against a Drawback Bond
                     ACS Limitations – Review of Prior Related Drawback Claims and
CBP         11-04                                                                                         CBP 12-01
                     Selectivity for Underlying Consumption Entries
                     ACS Deficiencies over Non-Entity Accounts Receivable (A/R) and CBP’s
CBP         11-05                                                                                         CBP 12-12
                     Ability to Effectively Monitor Collection Actions
                     Lack of System Integration and Compliance with the United States
CBP         11-06    Standard General Ledger at the Transaction Level Related to Inventory                CBP 12-15
                     and Related Property, Net.
                     Weaknesses in CBP’s Processes Related to Asset Additions and
CBP         11-07    Classification of Property, Plant, and Equipment (PP&E) Related                      CBP 12-06
                     Transactions as of April 30, 2011
                     Weaknesses in CBP’s Processes Related to Asset Additions and
CBP         11-07b   Classification of PP&E Related Transactions as of July 31, 2011 and                  CBP 12-06b
                     September 30, 2011
                     Improper Settlement of Assets, Including Untimely Capitalization of
CBP         11-08                                                                                         CBP 12-05
                     Assets from Construction in Progress (CIP) as of April 30, 2011
                     Improper Settlement of Assets, Including Untimely Capitalization of
CBP         11-08b                                                                                        CBP 12-05b
                     Assets from CIP as of July 31, 2011 and September 30, 2011
                     Weaknesses in CBP’s Processes Related to Asset Disposals as of April 30,
CBP         11-09                                                                                         CBP 12-08
                     2011
                     Weaknesses in CBP’s Processes Related to Asset Disposals as of July 31,
CBP         11-09b                                                                                        CBP 12-08b
                     2011 and September 30, 2011
                     Lack of Controls over Timely Processing of Goods and Services Received
CBP         11-10                                                                                         CBP 12-07
                     as of March 31, 2011
                     Lack of Controls over Timely Processing of Goods and Services Received
CBP         11-10b                                                                                        CBP 12-07b
                     as of July 31, 2011 and September 30, 2011
                     Weaknesses in the Monitoring and Review Process over Fines, Penalties,
CBP         11-11                                                                                  X
                     and Forfeiture Cases
                     Lack of Implementation of Controls over Determining Classification of
CBP         11-12                                                                                         CBP 12-02
                     Leases
CBP         11-13    Weaknesses in the Review of Weekly Entry Edit/Exception Reports                      CBP 12-19
                     Lack of Evidence of Review of the Drawback Auto/Deemed (D28) Alert
CBP         11-14                                                                                  X
                     Report
CBP         11-15    Detection of Excessive Drawback Claims                                               CBP 12-14
CBP         11-16    Deficiencies in the In-Bond Process                                                  CBP 12-18
CBP         11-17    Deficiencies in the Public Financial Disclosure Reporting Process                    CBP 12-10
CBP         11-18    Deficiencies in the Performance Management Program                                   CBP 12-11
CBP         11-19    Weaknesses in Controls over automated Journal Entries (JEs)                   X
CBP         11-20    Weaknesses in Controls over the Bond Sufficiency Review Process                      CBP 12-26
CBP         11-21    Incorrect Use of CBP Overtime Scheduling System Codes                         X
CBP         11-22    Lack of Formal Process for Determining Required Supervisory Reviews           X
CBP         11-23    Deficiencies over Monitoring of Ethics Requirements                                  CBP 12-21
CBP         11-24    Incomplete Undelivered Orders (UDOs) Quarterly Review                                CBP 12-22
                     Weaknesses Identified in the Bonded Warehouse and Foreign Trade Zone
CBP         11-25                                                                                         CBP 12-25
                     Processes and Procedures



                                                           82

                                                                                                        Appendix B
                                     Department of Homeland Security
                                        Status of Prior Year NFRs
                                           September 30, 2012


                                                                                             Disposition1
            NFR                                                                                         Repeat
Component           Description                                                              Closed2
            No.                                                                                         (2011 NFR No.)
CBP         11-26   Weaknesses in the Trade Compliance Measurement Program                              CBP 12-17
CBP         11-27   Management Oversight of PP&E                                                       CBP 12-20
                    Untimely De-obligation of UDOs and Monitoring of Period of
CBP         11-28                                                                                      CBP 12-30
                    Performance
                    Weaknesses in CBP’s Process Related to Recording Construction
CBP         11-29                                                                                      CBP 12-29
                    Percentage of Completion Amounts
CBP         11-30   Weaknesses in CBP’s Payroll Reconciliation Process                          X
CBP         11-31   Insufficient Review of Manual JEs                                           X
                    Deficiencies in the Review of the Department of Labor Chargeback
CBP         11-32                                                                                      CBP 12-28
                    Report


FEMA        11-01   Insufficient Controls over Processing Mission Assignments (MAs)                    FEMA 12-04
                    Deficiencies in Development and Application of Policies Related to the
FEMA        11-02   Non-Grant, Non-MA, Non-System-Generated Accounts Payable (A/P)                     FEMA 12-37
                    Accrual
                    Non-Compliance with 5 Code of Federal Regulations (CFR) Part 2638
FEMA        11-03                                                                                      FEMA 12-03
                    and 5 CFR Part 2638 Related to Ethical Requirements
FEMA        11-04   Inability to Closeout Assistance to Firefighter Grants                             FEMA 12-27
FEMA        11-05   Deficiencies in Development of MA Policies and Procedures                          FEMA 12-15
                                                                                                       FEMA    12-04,
                                                                                                       FEMA    12-10,
FEMA        11-06   Ineffective Controls over Processing and Monitoring Obligations                    FEMA 12-10a,
                                                                                                       FEMA 12-10b,
                                                                                                       FEMA 12-13
                    Incomplete Implementation of Controls over the Recording of Funding
FEMA        11-07                                                                                      FEMA 12-08
                    Transactions
                    Lack of Certain Documentation Related to Compliance with the Improper
FEMA        11-08                                                                               X
                    Payments Elimination and Recovery Act of 2010
FEMA        11-09   Ineffective Controls over Tracking Grants Eligible for Closeout                    FEMA 12-16
                                                                                                       FEMA    12-02,
FEMA        11-10   Financial Monitoring of Grants by the Grant Programs Directorate                   FEMA 12-02a,
                                                                                                       FEMA 12-02b
FEMA        11-11   Inability to Link Systems to Significant Grant Programs                            FEMA 12-01
                    Deficiencies in the Preparation and Review of the Government
FEMA        11-12   Accountability Office (GAO) Financial Audit Manual 2010 – Checklist                FEMA 12-14
                    for Federal Accounting (the Checklist)
                    Monitoring of Audit Findings in Accordance with Office of Management
FEMA        11-13   and Budget (OMB) Circular Nos. A-133 and A-50, and Related                         FEMA 12-28
                    Compliance Matters
                    Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies               FEMA    12-20,
FEMA        11-14
                    that Participate in FEMA’s National Flood Insurance Program (NFIP)                FEMA 12-20a
                    Internal Control Deficiencies over Claims Paid at Selected Insurance              FEMA    12-07,
FEMA        11-15
                    Companies that Participate in FEMA’s NFIP                                         FEMA 12-07a
FEMA        11-16   Lack of Formal Policies and Procedures in Various Areas                           FEMA 12-36
                    Deficiencies in the Monthly Spend Plan Reconciliation Preparation
FEMA        11-17                                                                                      FEMA 12-11
                    Process
                    Deficiencies Identified in the General Ledger Chart of Accounts and                FEMA    12-12,
FEMA        11-18
                    Transaction Codes                                                                  FEMA 12-12a
FEMA        11-19   Improvements Needed in Review and Recording of Year-End MA                  X



                                                        83

                                                                                                            Appendix B
                                     Department of Homeland Security
                                        Status of Prior Year NFRs
                                           September 30, 2012


                                                                                                 Disposition1
            NFR                                                                                             Repeat
Component           Description                                                                  Closed2
            No.                                                                                             (2011 NFR No.)
                    Accrual
                                                                                                           FEMA    12-02,
FEMA        11-20   Ineffective Controls over Grants Management                                            FEMA    12-05,
                                                                                                           FEMA 12-06
                    Budgetary Accounting Issues Identified in Journal Voucher (JV) Testwork
FEMA        11-21                                                                                          FEMA 12-22
                    Through September 30, 2011
                    Improvements Needed in Management’s Review of Grant Data and                           FEMA    12-34,
FEMA        11-22
                    Automated Reconciliations in Grant Accrual Models                                      FEMA 12-31
                                                                                                           FEMA    12-23,
FEMA        11-23   Issues Identified in JV Testwork through September 30, 2011
                                                                                                           FEMA 12-23a
FEMA        11-24   Compliance with the Prompt Payment Act                                                 FEMA 12-24
                                                                                                           FEMA    12-33,
FEMA        11-25   Improper Processing and Untimely De-Obligation of UDOs
                                                                                                           FEMA 12-35
                    Deficiencies in Verification and Collection of Performance Measurement
FEMA        11-26   Data for the Annual Financial Report’s Management’s Discussion and                     FEMA 12-39
                    Analysis
FEMA        11-27   Deficiencies in the Grant Accrual Methodology                                   X
                    Deficiencies over the NFIP Treasury Information Executive Repository
FEMA        11-28                                                                                   X
                    JV Adjustments
                    Lack of communication regarding the existence of the Department of
FEMA        11-29                                                                                          FEMA 12-25
                    Homeland Security Office of Inspector General Fraud Hotline


FLETC       11-01   Capitalization of PP&E                                                          X


USCIS       11-01   Lack of Controls over List-to-Floor Manual Processes                            X
USCIS       11-02   Deficiencies in the Timely Recording of Capital PP&E                                   USCIS 12-10
USCIS       11-03   Lack of Policies and Procedures over Non-Itemized Invoices for PP&E             X
USCIS       11-04   Inadequate and/or Inconsistent Supervisory Review of Personnel Actions                 USCIS 12-01
                    Inadequate Supervisory Review of the Intra-Departmental Eliminations
USCIS       11-05                                                                                   X
                    Reconciliation
USCIS       11-06   Untimely Change in Accounting Policies and Practices                            X
                    Inadequate Data in the Claims 3 system, Claims 4 system, and Marriage
USCIS       11-07                                                                                          USCIS 12-06
                    Fraud Amendment System
                    Inadequate Documentation and Untimely Capitalization of Internal Use
USCIS       11-08                                                                                          USCIS 12-09
                    Software (IUS)

                    The Federal Financial Management System (FFMS) has the Ability to
ICE         11-01                                                                                   X
                    Make Duplicate Payments
ICE         11-02   Failure to Record Payroll Accrual                                               X
                    General Journal Entry Not Approved by Office of Financial Management
ICE         11-03                                                                                   X
                    Director
                    Inadequate Internal Controls over Tracking and Removing Accumulated
ICE         11-04                                                                                   X
                    Depreciation in Sunflower Asset Management System
                    Process for Identifying Contract-type Obligations for Contract Closeout is
ICE         11-05                                                                                          ICE 12-19
                    Delayed
                    Inadequate Internal Controls over Tracking Leasehold Improvement
ICE         11-06                                                                                          ICE 12-05
                    Projects
ICE         11-07   Untimely Recording of Capitalized Asset Disposals                                      ICE 12-03



                                                         84

                                                                                                          Appendix B
                                       Department of Homeland Security
                                          Status of Prior Year NFRs
                                             September 30, 2012


                                                                                              Disposition1
            NFR                                                                                          Repeat
Component           Description                                                               Closed2
            No.                                                                                          (2011 NFR No.)
ICE         11-08   Reimbursable Agreements Not Timely Approved by Budget Officer                X
ICE         11-09   Number Not Used                                                                  Not applicable
ICE         11-10   Contracting Officer has Access to Approve Invoices in FFMS                   X
ICE         11-11   Incorrect Federal Employees’ Group Life Insurance Deduction                  X
ICE         11-12   Untimely Review of Office of Government Ethics 278 Forms                             ICE 12-08
                    Insufficient Documentation for Federal Employees’ Compensation Act
ICE         11-13                                                                                X
                    Claims
ICE         11-14   FFMIA Compliance                                                                     ICE 12-14
ICE         11-15   Inadequate Controls over New Hire Ethics Briefings                                   ICE 12-01
                    Subject to Availability of Funding Agreements not Obligated in FFMS at
ICE         11-16                                                                                        ICE 12-11
                    Outset of Agreement
ICE         11-17   Ineffective Internal Controls over Leave Audit Process                               ICE 12-09
                    ICE Does Not Accrue Capitalized Costs Incurred at year-end for Software
ICE         11-18                                                                                X
                    and Leasehold Improvement Projects
ICE         11-19   Inadequate Internal Controls over Tracking of IUS Projects                           ICE 12-04


MGT         11-01   Inadequate Internal Controls over PP&E                                               MGT-12-01


                    Inadequate Internal Controls over Reporting of Government Furnished
NPPD        11-01                                                                                X
                    Equipment Asset Disposals
                    Subject to Availability of Funding Agreements Not Obligated in FFMS at
NPPD        11-02                                                                                X
                    Outset of Agreement
NPPD        11-03   Potential Antideficiency Act Violation                                               NPPD-12-08
NPPD        11-04   Inadequate Internal Controls over Reporting of IUS Projects                  X
NPPD        11-05   Inadequate Internal Controls over Reporting of Equipment                             NPPD-12-13
NPPD        11-06   Untimely Reporting of Leasehold Improvements                                 X


S&T         11-01   Inadequate Internal Controls over Reporting of CIP and Buildings                     S&T 12-01
S&T         11-02   Untimely De-obligation of UDOs                                               X
S&T         11-03   Inadequate Controls over New Hire Ethics Briefings                           X
                    Insufficient Internal Controls to Ensure Timely Reporting of IUS in
S&T         11-04                                                                                X
                    Development and Personal Property

                    Employee Record Management and Compliance with Human Resource
TSA         11-01                                                                                        TSA 12-07
                    Related Laws
TSA         11-02   Accrued Payroll Controls                                                     X
TSA         11-03   Ineffective Controls at the Dallas Warehouse                                 X
TSA         11-04   Ineffective Controls over the Time and Attendance Process                            TSA 12-09
TSA         11-05   PP&E Federal Air Marshals (FAMS)                                                     TSA 12-10
TSA         11-06   PP&E Site Visits                                                                     TSA 12-10
TSA         11-07   Policies and Procedures over the PP&E Process                                        TSA 12-11
TSA         11-08   GAO Checklist                                                                X



                                                        85

                                                                                                  Appendix B
                                      Department of Homeland Security
                                         Status of Prior Year NFRs
                                            September 30, 2012


                                                                                      Disposition1
            NFR                                                                                  Repeat
Component           Description                                                       Closed2
            No.                                                                                  (2011 NFR No.)
TSA         11-09   Incorrect Trading Partner Codes                                      X
TSA         11-10   UDO Process                                                                 TSA 12-15
TSA         11-11   Number Not Used                                                   Not applicable
TSA         11-12   Review of JEs                                                               TSA 12-06
TSA         11-13   Number Not Used                                                   Not applicable
TSA         11-14   A/P Process                                                                 TSA 12-19
TSA         11-15   PP&E Provided by Client Issues                                       X
TSA         11-16   Lack of Policies and Procedures over IUS                                    TSA 12-20
TSA         11-17   Warehouse Reconciliation to the General Ledger                       X
TSA         11-18   Travel Authorization Approval                                               TSA 12-17
TSA         11-19   Accounting for Other Direct Costs                                    X
TSA         11-20   A/R Controls                                                         X
TSA         11-21   Reporting PP&E                                                       X
TSA         11-22   UDO Documentation                                                           TSA 12-13
TSA         11-23   Entity-Level Controls                                                       TSA 12-03
TSA         11-24   Non-Compliance with the Debt Collection Improvement Act of 1996             TSA 12-04
TSA         11-25   Warehouse Controls                                                   X
TSA         11-26   A/P Balance                                                          X
TSA         11-27   Financial Reporting Deficiencies                                     X
TSA         11-28   Non-Compliance with FFMIA                                                   TSA 12-21
TSA         11-29   Lease Accounting and Disclosure                                             TSA 12-16
TSA         11-30   Accounting for Advances and Prepayments                              X
TSA         11-31   Undelivered Orders Documentation – FAMS                              X


USCG        11-01   Environmental Liabilities                                                   USCG 12-07
USCG        11-02   Heritage Assets                                                             USCG 12-02
USCG        11-03   Financial Management Oversight                                       X
USCG        11-04   Statement of Net Cost                                                X
USCG        11-05   Fund Balance with Treasury Reconciliations                                  USCG 12-03
USCG        11-06   Cumulative Results of Operations                                     X
USCG        11-07   UDOs                                                                        USCG 12-18
USCG        11-08   Legal Liability Reporting                                            X
USCG        11-09   Accrued Payroll and Unfunded Leave Accrual (Military)                X
USCG        11-10   Accrued Payroll and Unfunded Leave Accrual                           X
USCG        11-11   Financial Reporting Process                                                 USCG 12-04
USCG        11-12   A/P Accrual                                                                 USCG 12-12
USCG        11-13   Financial Disclosure Reports                                                USCG 12-17
USCG        11-14   Purchase Requests/Commitments                                        X



                                                        86

                                                                                                                   Appendix B
                                           Department of Homeland Security
                                              Status of Prior Year NFRs
                                                 September 30, 2012


                                                                                                     Disposition1
                NFR                                                                                             Repeat
    Component            Description                                                                 Closed2
                No.                                                                                             (2011 NFR No.)
    USCG        11-15    A/R                                                                                    USCG 12-11
    USCG        11-16    Operating Materials and Supplies                                                        USCG 12-16
    USCG        11-17    PP&E Non-CIP Assets                                                                     USCG 12-19
    USCG        11-18    Federal Managers’ Financial Integrity Act of 1982                                       USCG 12-23
                                                                                                                 USCG    12-06,
    USCG        11-19    PP&E Asset Records
                                                                                                                 USCG 12-10
    USCG        11-20    Human Resources Compliance with Laws and Regulations                            X
    USCG        11-21    Intragovernmental Transactions and Balances                                             USCG 12-15
    USCG        11-22    PP&E: Repairables                                                               X
    USCG        11-23    PP&E: CIP                                                                               USCG 12-19
    USCG        11-24    Actuarial Medical Liabilities                                                   X
    USCG        11-25    Federal Managers’ Financial Integrity Act of 1996                                       USCG 12-20
                                  th
    USCG        11-26    PP&E: 4 Quarter Site Visit Observations                                                 USCG 12-01


                         Departmental Standards of Conduct and Procedural Guidance for
    CONS        11-01                                                                                            CONS 12-01
                         Financial Disclosure Report Filing
    CONS        11-02    Audited Financial Statements                                                    X
    CONS        11-03    Untimely Filing and Review of SF-278 Financial Disclosure Reports                       CONS 12-03
                         Non-Compliance with OMB Circular A-136 & Government Performance
    CONS        11-04                                                                                    X
                         and Results Act
                         Preparation and Review of the Special-Purpose Financial Statements and
    CONS        11-05                                                                                            CONS 12-04
                         Notes
    CONS        11-06    Findings Related to the Disbursement Process                                  Note 1

1
 KPMG was engaged to perform an audit over the DHS balance sheet and the related statements of net cost, changes in net
position and custodial activity, and combined statement of budgetary resources for the year then ended. In addition, we were
engaged to follow-up on the status of all active NFRs that supported significant deficiencies reported in our FY 2011 Independent
Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.

Note 1: Due to the expanded scoped in the FY 2012 audit, this finding was addressed at the component level.




                                                               87

                                                                                                                                                        Appendix C
                                Department of Homeland Security

                                   Management Response to the

                                       Management Letter

                                      September 30, 2012





                                                                                                  I .!>. U.'I'i!.., .. ",,,I .. r 11" .. , ... b_.~ ~tlrt'
                                                                                                  WIj'l-h ~DI:.I.II ,   Il<.   21)51~




                                                                                                 Homeland
                                                                                                 Security

M£\10RANn1JlVl roR,


fRO,.!,


SUBJECT.                            f',.-tan-i.\;.!,eml!l.lL L~ltcr   fl)["   lhc- DI IS· FY   2~f12   Financial Statcmcnt:-l
                                    ~1ml T'Jl!;:::rmd CvuLJlJI oJ ~·~J Fi nflJlcifll Rcportin,p: Audit



-!"h:ml.: ~-ou r~lr Lh~ Opporlwlity (v Cotll.Jllcnt on th;,: r,m... fl j\'lanagemcrf. U::lt~r for lbe FY 2CJ 12
nH~     f'inunciil SWlt:'llItrlB and internal CODtrol ()VL"T j' lnmclul Kt:porting Audit. We OO./lCllr "..-ith
lh~  rt:p<ITl' :,> recomm~'1l,jation5 md n:r:nain rlJll~ I.!l)mn:illed to add.l'essiJl~ c·ur oUls:anding
fin:.mr..:iillll1anagem~m challenges, v.,.'c HJ1prtX.iul::: )t)u on:ce's ('ofltribuliol1s ,,11<1 insights, .·mel
We Iu()\( IO['VI.'aJ'd to wOIkiug with "r'(lU ,J.''; ""c:: impi ~llIem QUI' cONectiv;:: actions md the D"S
i='inw!t.-I.d ! Jt..'..'o;rntaMIiry.: Act




                                                                88

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-13-38
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
